Peace Corps
Office of Inspector General




Final Program Evaluation Report:
   Follow-up Evaluation of the
   Volunteer Delivery System

                        December 2010
Final Program Evaluation Report:
   Follow-up Evaluation of the
   Volunteer Delivery System
                  IG-11-01-E




       _____________________________________________


                  Jim O’Keefe
  Assistant Inspector General for Evaluations




                December 2010
                                      EXECUTIVE SUMMARY

Based on President Obama’s call to service, Peace Corps committed to substantially increase the
number of Volunteers. Since that time, the agency has been identifying growth opportunities by
expanding current programs and opening Peace Corps programs in new countries. To
independently assess the agency’s capacity to carry out world-wide program growth without
decreasing Volunteer quality, the Office of Inspector General (OIG) evaluated the processes that
enable the agency to deliver Volunteers to the field, which is internally referred to as the
Volunteer Delivery System (VDS).

Throughout the past twenty years, numerous internal and external assessments identified needed
improvements to the VDS. One such assessment was the 2003 OIG report “Evaluation of the
Volunteer Delivery System,” which resulted in 24 recommendations. This report identified
weaknesses in leadership and organizational change; information flow; information technology;
medical screening; customer service; and staffing and staff training. OIG approached this
current evaluation as a follow-up to the 2003 report to determine if progress had been made
against the recommendations. Our review found that Peace Corps did not fully address the
recommendations in the 2003 OIG evaluation report. Many of the corrective actions agreed to
by the agency were either not initiated or were not fully carried out.

During this evaluation we were unable to conclusively determine whether the agency is
maintaining Volunteer quality while increasing the number of Volunteers in the field. The
agency’s standards for assessing applicants have not changed since the growth targets were
established. But the agency does not have a formalized definition of Volunteer quality and does
not systematically track Volunteer quality levels. Although there was no data to show that
overall Volunteer quality is decreasing, staff members close to the process expressed concerns
that Volunteer quality and suitability for service is declining as they face increasing pressure to
meet agency growth targets. According to staff, possible causes for the quality and suitability
changes include a lack of standardization in the applicant assessment process, a lack of quality
control processes, and less competition for Volunteer assignments.

We also found that the agency does not accurately track and measure its ability to recruit and
place Volunteers whose skills meet host country needs, which is reflected in Peace Corps’
“Performance and Accountability Report” (PAR) indicator 4.1.1. Even though the agency met
this goal for 2009, we uncovered concerns with the method used to measure the indicator. In
addition, overseas posts’ requests for Volunteers did not meet their actual needs. Posts were
encouraged to request lower-skilled trainees because of the agency’s difficulty recruiting
applicants with deep technical experience. This practice could potentially impact Volunteer
quality and effectiveness, particularly in countries where specialized skills were needed to meet
the project plan objectives.

Furthermore, the Office of Volunteer Recruitment and Selection (VRS) is not given adequate
time and information to fill requests for new Volunteers, particularly for new country entries.
The office is not included in the new country entry assessment process, and our analysis of the


Final Program Evaluation Report: Follow-up Evaluation of the Volunteer Delivery System                i
10 most recent post openings showed that VRS had to select and place Volunteers on an
extremely expedited timeline. This timeline constrained the entire VDS and could affect the
thoroughness of the applicant assessment.

Finally, throughout the course of this evaluation OIG encountered numerous difficulties
obtaining data to determine if the agency could maintain Volunteer quality during growth and to
verify that the agency had implemented the recommendations from the 2003 OIG report and
addressed the underlying problems. The requested data was cumbersome for agency staff to
gather because the agency did not routinely collect the requested data or could not easily access
it due to information technology constraints.

We identified areas where the agency could strengthen processes and controls, ensure a greater
level of quality assurance, and address known deficiencies in the VDS. Our report contains 23
recommendations, which, if implemented, should strengthen internal controls, address the
deficiencies identified in the VDS, and prepare the agency to maintain Volunteer quality during
growth.




Final Program Evaluation Report: Follow-up Evaluation of the Volunteer Delivery System              ii
                                                  TABLE OF CONTENTS

EXECUTIVE SUMMARY ........................................................................................................... I

BACKGROUND AND INTRODUCTION................................................................................. 1

SECTION A: MAINTAINING VOLUNTEER QUALITY DURING AGENCY GROWTH
......................................................................................................................................................... 5

SECTION B: FOLLOW-UP TO THE 2003 OIG EVALUATION OF THE VOLUNTEER
DELIVERY SYSTEM ................................................................................................................ 14

   LEADERSHIP AND ORGANIZATIONAL CHANGE ............................................................................ 14

   INFORMATION FLOW ................................................................................................................... 15

   INFORMATION TECHNOLOGY ...................................................................................................... 18

   MEDICAL SCREENING ................................................................................................................. 19

   CUSTOMER SERVICE ................................................................................................................... 21

   STAFFING AND STAFF TRAINING ................................................................................................. 22

SECTION C: DATA AVAILABILITY .................................................................................... 25

OBJECTIVES, SCOPE, AND METHODOLOGY ................................................................. 27

QUESTIONED COSTS AND FUNDS PUT TO BETTER USE ............................................ 31

LIST OF RECOMMENDATIONS ........................................................................................... 32

APPENDIX A: ACRONYMS AND GLOSSARY

APPENDIX B: ASSIGNMENT AREAS

APPENDIX C: AGENCY’S RESPONSE TO THE 2003 OIG EVALUATION OF THE
VOLUNTEER DELIVERY SYSTEM

APPENDIX D: ELIGIBILITY FOR PEACE CORPS VOLUNTEER SERVICE
APPENDIX E: AMERICAN REHABILITATION ACT

APPENDIX F: MANAGEMENT'S RESPONSE TO THE PRELIMINARY REPORT

APPENDIX G: OIG COMMENTS

APPENDIX H: PROGRAM EVALUATION COMPLETION AND OIG CONTACT
                         BACKGROUND AND INTRODUCTION

PURPOSE AND OBJECTIVES
Based on President Obama’s call to service, Peace Corps committed to substantially increase the
number of Volunteers. To support this goal, Congress approved a $400 million budget for fiscal
year 2010 programs and operations, the largest in the agency’s 49 year history. While Congress
supported the agency’s growth, Congressional staff members told OIG leadership that they
wanted to make sure the agency could maintain Volunteer quality while significantly increasing
the number of Volunteers in the field. 1

To independently assess the agency’s capacity to carry out world-wide program growth, OIG
evaluated the processes that enable the agency to deliver Volunteers to the field, a process that is
internally referred to as the Volunteer Delivery System (VDS). In addition, in 2003 OIG
identified areas for improvement in its “Evaluation of the Volunteer Delivery System” report.
With the agency’s current focus on Volunteer growth, OIG wanted to follow up on the
recommendations from the 2003 report to determine how much progress had been made. As a
result, the objectives of the evaluation were to:

    1. Assess whether the agency is positioned to support the growth and expansion of Peace
       Corps without decreasing Volunteer quality.
    2. Determine if the findings and recommendations identified in the 2003 VDS program
       evaluation have been adequately addressed.

PEACE CORPS’ VOLUNTEER DELIVERY SYSTEM
The Peace Corps Act describes the United States’ intent to “make available to interested
countries and areas men and women of the United States qualified for service abroad and willing
to serve, under conditions of hardship if necessary, to help the peoples of such countries and
areas in meeting their needs for trained manpower….” The VDS is a continuous cycle of
activities that enables the Peace Corps to fulfill its goals by ensuring the delivery of qualified and
suitable Volunteers to interested countries. The VDS cycle begins when overseas Peace Corps
staff, together with host country partners, decides on the number and qualifications of Volunteers
that are needed to fulfill project goals. Currently, trainees are requested using an assignment
area (AA) classification system that categorizes Volunteer applicants into 26 technical areas of
expertise based on demonstrated experience and academic credentials (see Appendix B for a list
of the AAs and a sample AA description). 2 Overseas post staff submits requests to headquarters
staff by stating how many Volunteers they need in the various AAs. 3 These requests form the
basis of the agency’s annual Volunteer goals, including the total number of Volunteers needed,
the specific technical and language skills needed, and the timeframe in which Volunteers are
expected to start serving in a given overseas post. Once the requests are received, the agency

1
  See Appendix A for a list of the acronyms used in this report.
2
  Volunteers are referred to as trainees until they are sworn in for service after successfully completing pre-service
training. For the purposes of this report, both trainees and Volunteers represent individuals who have been selected
to serve overseas for the Peace Corps.
3
  This information is contained in each post’s Quarterly Trainee Request Summary (QTRS).


Final Program Evaluation Report: Follow-up Evaluation of the Volunteer Delivery System                           1
recruits and screens applicants and assigns them to a country for Volunteer service. This process
is illustrated in Figure 1.

        Figure 1: Peace Corps’ Volunteer Request and Delivery Cycle (The “Figure 8”)




                  Source: Guide to Placement, March 2009.

The following offices play a critical role in the VDS:

    •    The Office of Volunteer Recruitment and Selection (VRS) – VRS is the office most
         closely associated with the VDS because it ensures the recruitment, selection, and
         placement of trainees requested by posts for overseas service. VRS includes the Office
         of Recruitment, which is supported by nine regional recruiting offices (RROs). 4 Staff in
         the Office of Recruitment recruits and interviews Peace Corps applicants and supports the
         marketing and public outreach about Peace Corps service. VRS also includes the Office
         of Placement. This office serves as a liaison between recruitment and overseas posts and
         is responsible for selecting and inviting qualified applicants that match posts’ requests.
         Within the Office of Placement, eligibility and suitability staff are responsible for
         collecting and reviewing relevant legal documentation to determine an applicant's
         eligibility for Volunteer service. VRS also includes the Staging Unit, which strives to
         seamlessly transition trainees from the United States to their country of service during a
         pre-departure orientation. 5

    •    The Office of Volunteer Support (VS) – Within VS, the Office of Medical Services’
         (OMS) Pre-screening Unit is responsible for conducting applicant medical screening. A


4
  Peace Corps RROs are located in Atlanta, Boston, Chicago, Dallas, Los Angeles, New York, San Francisco,
Seattle, and Rosslyn.
5
  Staging occurs after applicant review and selection; therefore, the Staging Unit’s activities were not in scope for
this evaluation.


Final Program Evaluation Report: Follow-up Evaluation of the Volunteer Delivery System                            2
         medical evaluation is required for all prospective Volunteers. 6 Pre-screening staff gather
         and review information related to applicants’ medical histories and make the decision to
         medically qualify, defer, or not qualify them for Peace Corps service.

    •    The Office of Communications – This office’s role in the VDS is to manage the design,
         production, and delivery of all recruitment and promotional products, including national
         advertisements and collateral materials.

    •    Overseas posts – Staff collaborate with host country stakeholders to identify projects and
         determine the skills needed by Volunteers. The posts rely on the VDS to select and
         deliver the requested Volunteers.

    •    Regions and Country Desk Unit staff – Regional staff oversee and support Peace Corps'
         overseas programs. Overseas post staff submits trainee requests to the regional Country
         Desk Unit staff, who then coordinate with VRS and VS staff.

    •    Program Advisory Group (PAG) – The PAG is composed of headquarters staff, often in
         management positions, from numerous offices within the agency that have a role in the
         VDS. The group manages issues related to meeting the agency’s annual Volunteer goals
         and develops strategies for balancing applicant supply, program demand, and identified
         gaps between the two.

Peace Corps Response is another means the agency uses to place Volunteers in the field. Peace
Corps Response provides opportunities for Returned Peace Corps Volunteers (RPCVs) to
undertake short-term Volunteer assignments. 7 Peace Corps Response uses recruitment and
placement processes that occur outside of the VDS and therefore was not covered during this
evaluation.

PREVIOUS STUDIES OF THE VOLUNTEER DELIVERY SYSTEM
The agency has a record of numerous agency-supported studies that have assessed the VDS
throughout the past twenty years. Until now, the most recent OIG evaluation report that focused
on the complete VDS was issued in April 2003. 8 At the time, the agency was preparing to
respond to President Bush’s call to double the number of Volunteers in five years. The report
concluded that the VDS had significant weaknesses, particularly in the areas of leadership and
organizational change; information flow; information technology; medical screening; customer
service; and staffing and staff training.

The 2003 OIG report resulted in 24 recommendations. The agency concurred with all of the
recommendations, and OIG closed them based on the agency’s stated intent to address all of the
recommendations. See Appendix C for the agency’s response. Until now, no additional follow
up was undertaken to verify that the recommendations were implemented, and current agency
employees acknowledged that many of the original recommendations had not been fully

6
  All applicants must undergo prescribed physical and dental examinations as part of the medical clearance process.
7
  Volunteers typically serve for 27 months unless serving as part of the Peace Corps Response program.
8
  Evaluation of the Volunteer Delivery System (IG 02-11-E)


Final Program Evaluation Report: Follow-up Evaluation of the Volunteer Delivery System                        3
addressed. During the current evaluation, OIG evaluated the extent to which the agency
implemented the original 24 recommendations. Those recommendations and their status to-date
are discussed in detail in Section B: Follow-Up to the 2003 OIG Evaluation of the Volunteer
Delivery System.

In 2008, OIG also issued a program evaluation report on the Peace Corps’ Medical Clearance
System (MCS), which is one component of the VDS. 9: The MCS is the agency’s mechanism for
medically screening applicants to ensure that Peace Corps posts receive healthy Volunteers who
can serve for 27 months. The 2008 medical clearance evaluation report contained 55
recommendations, seven of which targeted the same medical screening weaknesses identified in
the 2003 OIG VDS evaluation report.

VDS REDESIGN
Earlier studies of the VDS identified problems with the information technology systems that
support the process. The existing VDS technology system is a mix of paper-based and electronic
systems developed over many years. Automated workflows are not well implemented, if at all,
and much information resides outside of any information technology system and is not easily
accessible.

In 2009, the agency determined that the VDS technology system required a comprehensive
revision in order to meet current governmental requirements and to cope with anticipated growth
in Volunteer numbers. In response, the agency launched an overall redesign of the VDS. The
goal of the VDS redesign was to develop and upgrade the core business systems and associated
business practices required to manage all stages of the Volunteer lifecycle. At the time of this
OIG evaluation, the agency was in the process of upgrading two core elements of the VDS
technology system. The Volunteer Lifecycle Management System (VLMS) request for proposal
(RFP) was issued on March 8, 2010, and the selected vendor was awarded a contract on August
5, 2010. At the time of this report, the agency was still in the process of issuing an RFP for the
Volunteer Electronic Health System (VEHS).

Agency management anticipated that the VDS redesign would enable the agency to address
many of the documented problems with the VDS information technology system, including some
of the OIG’s recommendations that had not been addressed since the 2003 report was issued.
Because those improvements were still in progress during fieldwork, OIG determined that a full
evaluation of the 2003 recommendations related to the VDS information technology system
would be premature at this time. Instead, OIG decided to re-issue those recommendations, as
appropriate, and will track implementation using the corrective action process. 10 Those
recommendations are discussed in detail in Section B: Follow-Up to the 2003 OIG Evaluation of
the Volunteer Delivery System.




9
 Peace Corps’ Medical Clearance System (IG-08-08-E)
10
  OIG and the chief compliance officer use a corrective action process to track the agency’s implementation of
OIG-issued recommendations.


Final Program Evaluation Report: Follow-up Evaluation of the Volunteer Delivery System                           4
      SECTION A: MAINTAINING VOLUNTEER QUALITY DURING
                       AGENCY GROWTH

When reviewing the quality of Volunteers we were unable to conclusively determine whether the
agency is maintaining quality while increasing the number of Volunteers in the field. The
agency does not have a formalized definition of Volunteer quality and does not systematically
measure or collect related feedback. In general, we did not find evidence that overall Volunteer
quality is increasing, decreasing, or being maintained at current levels. However, some staff
members raised concerns that quality and overall suitability could decrease as they face
increasing pressures to meet growth targets. Their concerns were related to a lack of
standardization in the applicant assessment process, a lack of quality control processes, and
decreasing competition for Volunteer assignments as the number of open positions increases. As
a result of this feedback, we identified areas where the agency could strengthen VDS processes
and controls and thereby ensure a greater level of quality assurance.

The agency does not have a standardized way to measure and monitor Volunteer quality.

The agency does not have a formal definition of Volunteer quality; however, Peace Corps
assesses applicants based on their legal eligibility and suitability for overseas service. Peace
Corps Manual section (MS) 201 “Eligibility and Standards for Peace Corps Volunteer Service”
lists the eligibility requirements for Peace Corps Volunteer service and the factors considered
when assessing and selecting eligible applicants for training and service. MS 305.2 lists the
basic applicant eligibility requirements regarding citizenship, age, medical status, legal status,
intelligence background, marital status, dependents, and military service (see Appendix D for the
complete list of eligibility standards).

In addition to the basic eligibility standards, MS 305.4 lists the selection standards that applicants
must demonstrate they possess to qualify for selection as a Volunteer. Three of these standards
are assessed during the application process, and are defined by the agency as follows:

       •   Motivation: A sincere desire to carry out the goals of Peace Corps service, and a commitment to serve a
           full term as a Volunteer.
       •   Productive Competence: The intelligence and educational background to meet the needs of the
           individual's assignment.
       •   Emotional Maturity/Adaptability: The maturity, flexibility, and self sufficiency to adapt successfully to
           life in another culture, and to interact and communicate with other people regardless of cultural, social, and
           economic differences.

The fourth selection standard focuses on the applicant’s skills. In addition to the attributes
mentioned above, by the end of Pre-service Training (PST) a trainee must demonstrate
competence, as defined by the agency, in the following areas: 11



11
     PST is an 8-12 week training program that trainees participate in before being sworn in as Volunteers.


Final Program Evaluation Report: Follow-up Evaluation of the Volunteer Delivery System                             5
    •    Language: The ability to communicate in the language of the country of service with the fluency required
         to meet the needs of the overseas assignment.
    •    Technical competence: Proficiency in the technical skills needed to carry out the assignment.
    •    Knowledge: Adequate knowledge of the culture and history of the country of assignment to ensure a
         successful adjustment to, and acceptance by, the host country society. The trainee must also have an
         awareness of the history and government of the United States which qualifies the individual to represent the
         United States abroad.

These selection standards, which have not changed since the agency announced its growth goals,
form the basis of the agency’s applicant assessment process. The recruitment and placement
assessment tools are aligned with these selection standards, and applicants are invited to serve
overseas based on their legal eligibility and their ability to demonstrate motivation and
commitment; productive competence; maturity; and social sensitivity/cultural awareness.

Beyond these eligibility and suitability standards, the agency does not have a formal, agreed
upon definition of Volunteer quality and has not identified related performance indicators. Staff
from overseas posts, headquarters offices, and regional recruiting offices provided a broad range
of individual definitions and indicators of Volunteer quality. For some staff, quality can be
measured by the agency’s current eligibility standards, which focus on Volunteers’ attitude,
motivation, technical skills, and language skills. For others, quality also includes Volunteers’
productivity and project outputs; the number of Volunteer disciplinary problems and
administrative separations; average length of service; and the number of early terminations and
resignations. However, none of these have been formally identified and tracked as a measure of
Volunteer quality. More information about the data challenges faced during this evaluation can
be found in Section C: Data Availability.

Based on the lack of concrete data concerning Volunteer quality, OIG could not determine
whether Volunteer quality was being maintained during growth. Without a standard definition
and measure of Volunteer quality, the agency cannot collect and analyze related data and use it
in daily operations, such as demonstrating the quality of Volunteers and adjusting applicant
assessment tools and methods, if needed.

                  We recommend:

                    1. That the agency develop and implement a method to
                       measure Volunteer quality.

Some VRS staff raised concerns about the ability to maintain Volunteer quality during a
period of agency growth.

As previously stated, the agency does not have a standard definition and measure of Volunteer
quality; therefore, OIG was not able to quantitatively measure Volunteer quality levels and
analyze how well the agency is performing. From a qualitative perspective, VRS senior
managers stated that they have received positive informal feedback from overseas post staff
regarding the quality of recently placed Volunteers. However, given the lack of a regular, formal
mechanism for overseas posts to provide feedback on the quality of the Volunteers invited to
serve, such determinations are largely anecdotal. In lieu of formal feedback results, OIG



Final Program Evaluation Report: Follow-up Evaluation of the Volunteer Delivery System                         6
gathered information from overseas post staff who stated that the majority of the trainees met
their expectations in most of the areas that they deemed as indicators of quality, especially having
the right attitude to serve. However, some trainees did not have the language levels, technical
skills, and practical experience deemed necessary to begin in-country PST. It is important to
note that fieldwork for this evaluation occurred before the training class sizes increased at most
posts. Therefore, post staff was unable to comment on whether quality remained consistent after
training class numbers increased to meet the agency’s growth targets.

Despite receiving positive feedback from overseas posts and VRS senior management, VRS staff
members reported a change in the skills and suitability of applicants invited for service after
training class targets increased to meet the agency’s 2010 growth goals. Many of the placement
officers we spoke to stated that recently they have invited applicants to serve who were not as
competitive as previous applicants, and some staff members expressed suitability concerns
related to motivation and commitment; productive competence; maturity; or social
sensitivity/cultural awareness. 12 According to staff, possible causes for the quality and
suitability changes include a lack of standardization in the applicant assessment process, a lack
of quality control processes, and less competition for Volunteer assignments.

Standardization of Applicant Assessments
Staff members were concerned that the lack of standardization in the applicant assessment
process led to variability in Volunteer quality. Although all recruiters and placement officers
used the same eligibility and suitability criteria, some of the categories were subjective and relied
heavily on the staff member’s professional judgment to determine suitability. The agency did
not have a rating scale or scoring mechanism to differentiate applicants. It also did not have a
standard list of follow-up questions to ask when pursuing potential suitability issues, although
the Placement office was trying to develop more standardized tools at the time of our fieldwork.
In addition, placement officers did not have a standardized method to document the results of
their assessment when doing a suitability follow-up. This lack of standardization made it
difficult to track what they assessed, the information gathered, and the rationale for the final
placement decision.

Quality Control for Recruitment and Placement Processes
The agency also did not have standardized quality control processes as part of its Volunteer
recruitment or placement activities. These are especially important when staff members are
required to use professional judgment to make subjective decisions when recruiting and selecting
an applicant for Peace Corps service in a given country.

A recruitment coordinator, according to the position description, is responsible for reviewing
applicant files for accuracy and completeness and for reviewing and approving qualification
determinations. However, there is no documented guidance to describe these quality control
activities and ensure standardization among the agency’s nine RROs. While some recruitment
coordinators stated that they verified the applicant was appropriately nominated for service based
on skill and experience requirements, others only verified that the applicant’s file contained the
correct documents. This lack of standardization increased the chance that mis-nominated

12
  Placement officer is the working title used for Volunteer placement and assessment specialists. This working title
will be used throughout the report.


Final Program Evaluation Report: Follow-up Evaluation of the Volunteer Delivery System                        7
applicants would not be identified before reaching the Medical Pre-screening and Placement
offices. 13

When Placement reviews an applicant who presents potential suitability or legal eligibility
issues, they complete a feedback form and provide it to the RRO that nominated the applicant.
VRS staff conducted an analysis of the feedback forms submitted in 2009. This analysis
revealed that 49 percent of the concerns were due to a mis-nomination or inaccurate language
assessment. A better quality check before the nominated applicant file leaves recruitment might
have prevented applicants who do not fully meet the agency’s eligibility or suitability standards
from proceeding through the process. As a result of this analysis, Office of Recruitment
managers instructed the RROs to develop a process to review each nominated applicant file for
accuracy and completion before the file continues to medical screening and Placement.

In the applicant selection and placement phase of the VDS, placement officers evaluate an
applicant’s suitability and make a placement decision. No one reviews the final decision made
by a placement officer unless a rejected applicant appeals the decision. Unlike recruitment, there
was no formalized process in place to gather feedback on applicants who had presented potential
eligibility or suitability issues but were still placed in an overseas post.

Competition for Volunteer Jobs
Some of the quality variation might also have resulted from changes in the number of Volunteer
assignments that were available. In 2009, applications to Peace Corps were at the highest level
in at least ten years, but budget constraints forced the agency to reduce the number of overseas
assignments. The agency was able to be very selective because there was a large pool of
applicants to fill a limited number of spaces. In 2010, the agency’s increased budget and growth
targets created more overseas assignments, resulting in less competition among applicants for
Volunteer spaces.

VRS managers acknowledged that changes in the number of available Volunteer spaces might
have impacted competiveness, but they also maintained that everyone who was selected for
service met the agency’s eligibility and suitability standards. However, some VRS staff reported
that nomination pools had fewer quality candidates than in the past and that the pressure to fill all
of the open spaces compelled them to extend invitations to applicants who met the basic
eligibility standards but did not meet their interpretation of the agency’s suitability standards. 14

Although VRS staff raised concerns about the quality of the Volunteers selected for service since
the agency began increasing the number of Volunteers, OIG could not substantiate their concerns
or determine the impact on the agency and overseas posts, if any. Applicants are not scored on
their level of suitability, and overseas posts are not asked for formal feedback concerning
Volunteer performance and suitability so it was not possible to track Volunteer quality over time.

                  We recommend:


13
  Applicants that are inappropriately nominated are referred to as mis-nominations (or mis-noms).
14
  Applicants are nominated to groupings based on specific requirements. These groupings are referred to as
nomination pools.


Final Program Evaluation Report: Follow-up Evaluation of the Volunteer Delivery System                       8
                    2. That the Office of Volunteer Recruitment and Selection
                       develop and implement a standardized applicant
                       suitability follow-up process. If needed, develop related
                       tools to assist staff in implementation.
                    3. That the Office of Volunteer Recruitment and Selection
                       develop and implement a standardized method for staff to
                       document the results of their applicant assessment.
                    4. That the Office of Volunteer Recruitment and Selection
                       develop a method to objectively measure the quality of
                       each Volunteer applicant.
                    5. That the Office of Volunteer Recruitment and Selection
                       clarify and standardize the quality control requirements
                       of recruitment staff and ensure standardized
                       implementation of these responsibilities. Adjust position
                       descriptions to reflect staff members’ quality control
                       activities, as necessary.
                    6. That the Office of Volunteer Recruitment and Selection
                       develop and implement quality control procedures for the
                       Office of Placement and adjust position descriptions to
                       reflect staff members’ quality control activities, as
                       necessary.
                    7. That the Office of Volunteer Recruitment and Selection
                       and the Office of Global Operations develop and
                       implement a method to gather feedback from post staff
                       on Volunteer performance and suitability for their
                       assignments.

The agency could not accurately assess and report its ability to supply trainees whose skills
met expressed host country needs.

The Peace Corps Act states that the agency "shall make available to interested countries and
areas men and women of the United States qualified for service abroad ... to help the peoples of
such countries and areas in meeting their needs for trained manpower….” The agency’s 2009-
2010 strategic plan and performance goals reinforce this overarching purpose. Performance goal
4.1.1 reads: “Recruit Volunteers that balance the needed manpower and technical needs at post
with the available applicant pool and its skills.” For fiscal years 2009-2011, the agency sought to
provide “at least 95 percent of the number of trainees and skills” requested by overseas posts.

According to the Peace Corps Performance and Accountability Report (PAR) for fiscal year
2009, the agency met this goal in 2009 by achieving a rate of 96 percent. However, regional and
overseas staff members reported that some of the trainees selected for their programs did not
have the technical or language skills needed to fulfill the expectations of overseas staff, project
partners, and host country government officials.

This discrepancy was partially caused by the method the agency used to measure this PAR goal,
particularly in regards to “almost matches” – applicants who did not meet the full skill
requirements of the requested AA but had similar qualifications and skills. The agency


Final Program Evaluation Report: Follow-up Evaluation of the Volunteer Delivery System        9
measured the PAR rate by comparing the number of trainees requested by posts for a given AA
with the number of trainees the agency placed in those requested AAs. However, the calculation
did not take into consideration applicants who were categorized as “almost matches.” When a
placement officer found an applicant who had some, but not all, of the requested technical or
language skills, they provided the post with the opportunity to accept or reject the applicant. If
accepted by the post, the applicant joined the training class as someone who met the full
qualifications of the AA, not as someone who matched only some of the requested
qualifications. This methodology distorted the agency’s performance and created the perception
that the agency was more successful than merited at meeting the recruiting goals for Volunteers
with the full range of requested skills.

Another reason for the difference between posts’ perspectives of Volunteer skills and the results
of the PAR indicator is because posts’ trainee requests did not always match their actual needs.
Some post and region staff members reported that VRS staff encouraged them to request lower-
skilled trainees instead of those with experience or scarce skills. The agency has not always
been able to recruit sufficient numbers of trainees with deeper technical experience or with the
difficult to recruit “scarce skill” backgrounds, and it has had to encourage posts to accept less
experienced “generalist” Volunteers instead. 15 Post and region staff members reported that they
often agreed to accept the lesser skilled candidates so they could get enough Volunteers,
although they still needed more experienced Volunteers to meet their project plan objectives and
host country expectations. Furthermore, the post did not have the time and resources to build
trainees’ technical and language skills during PST, which is designed well in advance of the
trainees’ arrival and cannot quickly be changed if trainee skills do not meet posts’
expectations. This reduction of Volunteer qualifications had the potential to impact Volunteer
quality and effectiveness, particularly in countries where project partners and government
ministries had strict skill and degree requirements for Volunteers and in posts where specialized
skills were needed to meet the project plan objectives. Staff from six of the nine posts we spoke
to reported that host country government officials and counterparts expressed concern that some
Volunteers do not have the appropriate skills and backgrounds.

An analysis of accurate data concerning Volunteers’ skills could be a useful tool to measure the
success of the VDS in a key area – providing posts with trainees who have the technical skills to
meet host country needs. VRS could use this information to adjust its recruiting strategies,
modify its placement techniques, or reaffirm its methodologies. The data could also be useful to
posts because it would set more realistic expectations about skill sets that the VDS can supply.
This would enable posts to more effectively plan their programs and design training.

                  We recommend:

                    8. That the agency develop a method to accurately track
                       posts’ trainee requests and measure its ability to meet
                       those requests.



15
  The term “generalist” refers to Volunteers who are recent college graduates with little or no professional
experience.


Final Program Evaluation Report: Follow-up Evaluation of the Volunteer Delivery System                         10
VRS does not provide input into new country entry decisions and is not provided sufficient
time to recruit and deliver trainees for new country entries.

Expansion to new countries is one of the strategies identified for agency growth. This approach
will depend heavily on the agency’s ability to recruit and place readily available candidates in
the new country programs. To achieve this, the VDS, particularly the recruitment and placement
staff in VRS, will need adequate time and information to fill requests for new Volunteers.

MS 340 “Opening a Post” outlines the process for opening or reopening a Peace Corps post, and
additional guidance is provided in the Peace Corps' New Country Assessment Guide and New
Country Entry Guide. During the programming portion of the new country assessment, the team
should determine the recommended number of Volunteers and the skills and language levels
requested by the host country, among other things. The information obtained during the
assessment should be used to make a final decision about whether Peace Corps will open/re-open
a post and to inform the request for new Volunteers. This information has a direct impact on the
VDS because staff will be required to recruit and place Volunteers with the requested skills and
experience before the post opens.

Based on the Volunteer skills needed, regional staff members work with post staff to develop and
submit a Training Class Summary Sheet (TCSS). The final TCSS serves as the official
notification for VRS to begin its recruitment process. VRS requires 12-15 months to fill the
post’s request for trainees, and changes to the trainee request cannot be accommodated in the last
four months before staging. 16 The timelines are based on the current business processes, which
are used for newly opened posts as well as existing posts requesting additional Volunteers.
There is not a separate process for new country entries that requires less time to recruit and place
Volunteers.

Our review of the most recent post openings/re-openings revealed that VRS was typically not
provided with the results of the assessment or given the required amount of time to fill the
trainee request. 17 Of the last ten post openings/re-openings, VRS participated in the new country
assessment only once – the PC/Mexico assessment in August 2003. Current VRS management
had no record of receiving the results of the other nine assessment reports or being asked to
provide input into the feasibility of providing Volunteers whose technical and language skills
matched host country requests.

We further analyzed data for nine of the ten most recent post openings/re-openings and
determined that seven of the TCSSs were submitted late to VRS. 18 The TCSS submissions for
Columbia and Sierra Leone’s first non-Peace Corps Response inputs were the only ones
provided within the 12-15 month mandated timeframe. 19 On average, VRS had less than eight

16
   Staging is a pre-departure event to orient trainees to the Peace Corps and the general demands of being a healthy,
safe, and effective Volunteer. It typically occurs immediately before departure.
17
   Peace Corps posts in Columbia, Indonesia, Sierra Leone, Rwanda, Liberia, Ethiopia, Cambodia, Mexico, St.
Kitts/Nevis (part of the Eastern Caribbean post), and Azerbaijan were included in this analysis.
18
    Of the ten most recent post openings/re-openings, St. Kitts/Nevis was not included in the TCSS analysis because
the final TCSS was not available.
19
   Three of the posts in our analysis, Columbia, Sierra Leone and Liberia, were opened with Peace Corps Response
Volunteers. Peace Corps Response uses a recruitment and placement process that is separate from the Volunteer


Final Program Evaluation Report: Follow-up Evaluation of the Volunteer Delivery System                         11
months to fulfill the requests. In two cases, Indonesia and Ethiopia, VRS had less than four
months to fill the training class. This timeframe is far short of the 12-15 month mandate and
falls within the four month timeframe when changes cannot be accommodated. Table 1 provides
additional details.

                 Table 1: Key Dates for the Last Ten Post Openings/Re-openings
                   Post Name       Final TCSS               Staging        Months for VRS to
                                Submission Date               Date         Fill Trainee Request
                   Columbia     9/1/2010                   9/20/2011      12.5
                   Indonesia    11/30/2009                 3/15/2010      3.5
                   Sierra Leone 4/28/2009                  6/2/2010       13.0
                   Rwanda       7/10/2008                  1/27/2009      6.5
                   Liberia      9/1/2009                   7/7/2010       10.0
                   Ethiopia     6/22/2007                  10/3/2007      3.5
                   Cambodia     4/4/2006                   1/29/2007      9.5
                   Mexico       4/26/2004                  9/30/2004      5.0
                   Azerbaijan   1/6/2003                   8/16/2003      7.0
                  Source: Office of the Director and VRS
                  Data as of 9/2/2010

One reason that VRS did not receive advance information about post openings/re-openings is
because neither MS 340 nor the New Country Assessment Guide requires VRS to participate in
the assessment process or receive the assessment information related to the VDS. VRS staff
assumes primary responsibility for providing posts with trainees who have the requested skills,
and they have important information about the number of applicants in the pipeline, including
their skills and stage in the application process. However, the office is not given the opportunity
to provide input on the feasibility of recruiting trainees with the skills requested in time for the
proposed post opening date. VRS often has to compress its recruiting and placement timelines
for new country entries because the office is not given the 12-15 months mandatory preparation
time.

As a result of the compressed timelines, VRS staff members reported that they do not have
enough time to thoroughly assess applicants. Staff members are instructed to select the highest
quality Volunteers for newly opened posts. Because they do not have enough time to recruit
these Volunteers, they take exceptionally high quality Volunteers that were identified for an
existing post’s upcoming Volunteer input and assign them to the newly opening post.
Consequently, VRS staff members struggle to find more high quality Volunteers that will be
available in time for the existing post’s scheduled input date, and they often cannot conduct
thorough assessments before the input deadline. The pressures and time constraints created by
the new country entries affect the entire VDS. Because the agency does not have a process that
is designed to quickly recruit and place high quality Volunteers in new posts, the VDS is
strained, and Volunteer quality could suffer if staff does not have adequate time to thoroughly
assess applicants.

                  We recommend:

Delivery System. For these posts, we obtained TCSS submission and input dates for their first input of non-Peace
Corps Response Volunteers because these inputs were part of the VDS.


Final Program Evaluation Report: Follow-up Evaluation of the Volunteer Delivery System                     12
                    9. That the agency include the Office of Volunteer
                        Recruitment and Selection in the new country entry
                        decision-making process so it can assess availability of
                        needed trainees and incorporate new trainee requests into
                        its recruitment plans. Update MS 340 “Opening a Post”
                        and new country entry assessment guidance accordingly.
                    10. That the agency develop a process to accommodate
                        expedited trainee requests to support new country entries
                        in a way that upholds Volunteer quality for all posts.




Final Program Evaluation Report: Follow-up Evaluation of the Volunteer Delivery System   13
     SECTION B: FOLLOW-UP TO THE 2003 OIG EVALUATION OF
              THE VOLUNTEER DELIVERY SYSTEM

We reviewed actions taken by the agency to address the recommendations made in the OIG’s
2003 report “Evaluation of the Volunteer Delivery System” (IG-02-11-E) and determined that
the Peace Corps did not fully address the recommendations. At the time the 2003 report was
issued, the agency concurred with all 24 recommendations and described specific plans to
address those recommendations. However, many of the corrective actions agreed to by the
agency were either not initiated or were not fully carried out.

Agency management anticipated that the VDS redesign would enable the agency to address
some of the unimplemented recommendations. Because those improvements were still in
progress during fieldwork, OIG determined that recommendations related to the VDS
information technology system would not be in scope for this follow-up evaluation. Instead,
OIG decided to re-issue those recommendations, as appropriate.

L E A DE R SH I P A ND OR G A NI ZA T I ONA L C H A NG E
The 2003 OIG evaluation determined that the agency had not assigned leadership responsibility
to a senior manager to effectively oversee the VDS and manage and coordinate dependencies
between the various offices involved in the delivery system. Although participants in the VDS
understood problems from their vantage point, they did not fully understand those encountered
by other units or their office’s role in the larger delivery system. The agency lacked a designated
leader who could bring together the appropriate managers to address the already well-known
problems and implement solutions. The PAG was intended to play this management and
oversight role, but senior leaders were not attending the meetings, which diminished its authority
and overall effectiveness. In addition, the report highlighted problems with the Assignment Area
(AA) classification system.

To address these problems, the 2003 OIG report resulted in the following three recommendations
related to leadership and organizational change:

       •   That a senior official be appointed to chair a management committee from each major office involved in
           the delivery system to prepare a blueprint for delivery system process changes and continuous
           improvements. [#1] 20
       •   That the assignment area classification system be reviewed and changed to meet the requirements of post
           programs and stateside Volunteer delivery activities. [#2]
       •   That the Agency reconstitute the Program Advisory Group with the appropriate managers. [#3]

Our follow-up evaluation focused on the extent to which the agency has addressed
recommendations numbers one and three. Recommendation two was not included because the
agency planned to take corrective action as part of the VDS redesign project. Even though this
evaluation did not focus on the AA system, numerous staff members we spoke to stated that the

20
     The numbers following the recommendation indicate the recommendation number in the 2003 report.


Final Program Evaluation Report: Follow-up Evaluation of the Volunteer Delivery System                       14
current AA system impedes efficiency and makes it difficult for posts to request trainees with the
skills needed for their project plans. Because the agency agreed that corrective action had not
yet been taken, an agreement was made to re-issue the recommendation, as appropriate, and
follow it through the corrective action process.

In its response to recommendation number one from the 2003 report, the agency stated that VDS
process changes and continuous improvements would be integrated into the PAG's activities.
However, at the time of this follow-up evaluation, the PAG was not directly responsible for these
activities. Instead, the agency established a VDS Steering Committee in 2006. This committee
was established “to oversee the delivery system activities, ensure seamless continuity of
operations between offices, focus agency resources and propose strategic solutions to emerging
challenges.” In spite of this broad purpose, the current co-chairs of the VDS committee stated
that the committee has been focused largely on issuing the VLMS RFP since March 2009. A
review of the steering committee’s meeting agendas and minutes from March 2009 to January
2010 demonstrated that the committee typically met monthly, and the major offices involved in
the delivery system were represented at meetings. Based on this analysis, the agency has
partially addressed recommendation number one from the 2003 evaluation. However, the second
part of the recommendation, "to prepare a blueprint for ... continuous improvements," has not
been addressed. It is not clear that any entity has responsibility for continuous quality
improvements for the VDS.

In its response to recommendation number three from the 2003 report, the agency stated that the
PAG would be reconstituted and would meet once a month. A review of PAG meeting agendas
and minutes demonstrated that the PAG started meeting again in June 2006 and met at least
monthly. The majority of the meeting participants reported that the meetings were successful.
Based on this analysis, OIG determined that the agency has addressed recommendation number
three.

To address the outstanding issues related to the 2003 OIG evaluation report we recommend:

                    11. That the Volunteer Delivery System Steering Committee,
                        or other senior level committee, develop and implement a
                        process to oversee continuous quality improvement of the
                        Volunteer Delivery System.
                    12. That the applicant matching process and related
                        Assignment Area system be reviewed and modified to
                        meet the requirements of post programs and Volunteer
                        Delivery System activities.

I NF OR M A T I ON F L OW
The 2003 OIG evaluation determined that the VDS needed improved operational linkages, data
analyses, and information sharing among key delivery system offices to enhance long-term
planning, outreach, and marketing. OIG issued ten recommendations related to these issues. For
purposes of analysis, we grouped these recommendations into three major categories: post
requests for skilled Volunteers, data for planning and outreach, and competencies and attributes
of successful Volunteers.



Final Program Evaluation Report: Follow-up Evaluation of the Volunteer Delivery System      15
Post Requests for Skilled Volunteers
In 2003, OIG found that information sent to posts to communicate the supply of applicants with
specific technical skills was not clear, concise, or current and overseas post staff reported that it
was difficult to use the information during project planning. Also, the Quarterly Trainee Request
Summary (QTRS) reports that were used by overseas posts to request trainees with specific
technical skills did not include enough detail to help recruiters interview and assess candidates.

To address these concerns, the 2003 OIG report resulted in the following recommendations:

     •   That VRS redesign the Trainee request guidelines handbook for clarity and content and distribute an
         updated version to posts and regions on an annual basis. [#4]
     •   That VRS redesign the QTRS to capture more detailed information on the work duties and skill
         competencies required for future assignments. [#5]

Recommendations four and five were not included in the scope of this evaluation because the
agency planned to take corrective action as part of the VDS redesign project. Agency
management stated that the new VLMS could fundamentally change the applicant matching
process, thereby eliminating or significantly changing the AA system, trainee request handbook,
and QTRS. Because the agency agreed that corrective action had not yet been taken, an
agreement was made to re-issue the recommendations, as appropriate.

Data for planning and outreach
The 2003 OIG report found that the agency was not taking full advantage of data that could help
the agency develop and revise its recruiting and outreach strategies. Information about the
number of Volunteers requested by the posts and the required technical and language skills was
gathered in multiple documents, including the project and training status reports, QTRS, IPBS
and project plans. However, this information was not consolidated to create medium- and long-
term targets and was not communicated to all of the offices in the VDS, including Recruitment
and Communications. This impeded coordination between offices and prevented optimal long-
term planning, outreach, and marketing.

To address these issues OIG made the following recommendations in 2003:

     •   That the Office of Planning, Budget, and Finance redesign the [Integrated Planning and Budget System
         (IPBS)] document to collect posts’ Trainee request data with the specific assignment areas for a three-year
         period and that this data serve as the primary source of Trainee request data for the delivery system offices
         and agency planners. [#6]
     •   That the Center 21 redesign the project status and training status reports to capture feedback on Trainee and
         Volunteer performance and the skill competencies under consideration for future training classes. [#7]
     •   That the Center redesign the project plan and project framework documents to capture the specific number
         of Volunteers projected per year per assignment area for the life of the project and that this information be
         available for long-term delivery system marketing and outreach activities. [#8]
     •   That VRS and the regions collect projected post Trainee request data and maintain it on the [Peace Corps
         Database Management System (PCDBMS)] for the development of analytic reports. [#9]



21
  The name of the Center has changed since 2003 and is now called the Office of Programming and Training
Support (OPATS).


Final Program Evaluation Report: Follow-up Evaluation of the Volunteer Delivery System                          16
     •   That the Center include in the annual project and training status global summary report an in-depth analysis
         of program trends as well as assignment areas and the skill competencies required for assignments. [#10]
     •   That the renovation committee consider how Trainee and Volunteer demand information from the posts
         might be collected for the IPBS, Project Status Report (PSR), QTRS, and project plan processes via a
         single format that is regularly updated and incorporated to eliminate duplication and achieve comparability
         and consistency. [#11]

Our follow-up evaluation focused on the extent to which the agency has addressed
recommendations numbers 6-13 from the 2003 report. Since the OIG report was issued in 2003,
some of the reports referenced in recommendations numbers 6-11 have changed and no longer
collect information about needed technical skills. However, the QTRS, IPBS, and project plans
do continue to capture this information. The QTRS collects it on an annual basis, the IPBS
covers two years of trainee requests, and the project plan covers the life of the project, which
may cover ten or more years. The agency is still not consolidating this information and
providing it to the offices that could use it to plan long-term recruiting, marketing, and outreach
activities.

Regarding recommendation number six from the 2003 report, we could not find evidence that the
agency changed the IPBS to collect three years of trainee request data. The IPBS continues to
collect posts’ trainee request data for a two year period. The agency’s acting chief financial
officer and senior leadership in VRS and the regions did not believe that changing the IPBS to
include trainee request data for a three-year period was necessary because Peace Corps receives
two-year funding. They stated that the accuracy and value of projecting trainee requests beyond
the timeframe for appropriated funding was limited because funding drives and constrains trainee
inputs.

Competencies and Attributes of Successful Volunteers
The 2003 OIG report also found that the agency did not collect data on the core competencies
and personal attributes of successful Volunteers. This data could have been used to develop
more effective marketing and outreach strategies and candidate assessment tools.

To address this concern, OIG made the following recommendations:

     •   That the Office of Planning and Policy Analysis 22 create assessment tools and conduct studies to generate
         systematic feedback on the performance of Trainees and Volunteers, core competencies and personal
         attributes of successful Volunteers, and the causes of Volunteers’ early termination from service. [#12]
     •   That the agency develop institutional linkages and partnerships with universities and colleges interested in
         conducting formal research regarding the performance of Trainees and Volunteers, core competencies and
         personal attributes of successful Volunteers, and the causes of Volunteers’ early termination of service.
         [#13]

In response to recommendation number 12 from the 2003 report, the agency stated that it was
going to develop resources, such as the Close of Service Evaluation, Host Country National
Survey and other evaluative tools, to generate systematic performance assessments, and identify
the core competencies and personal attributes of successful Volunteers. It was also going to
enhance its analysis of early terminations and report on the underlying causes for Volunteer

22
  The name of the Office of Policy Planning and Analysis has changed since 2003 and is now called the Office of
Strategic Information, Research and Planning (OSIRP).


Final Program Evaluation Report: Follow-up Evaluation of the Volunteer Delivery System                         17
resignations. Since the 2003 report, multiple tools have been developed to gather information
intended to inform the agency about Volunteer performance. The Annual Volunteer Survey
(AVS) measures Volunteer satisfaction. The Volunteer Reporting Tool (VRT) collects
information on Volunteer project outputs and goals. The Host Country Impact Studies collect
perspectives from host country counterparts, beneficiaries, host families and stakeholders to
inform the agency about the benefits of Volunteers’ work. The agency also summarizes early
termination data and produces a quarterly report to inform management. However, none of these
tools systematically collect data regarding the competencies and attributes needed for Volunteer
success.

Since the 2003 report, the Office of Strategic Information, Research and Planning (OSIRP)
developed institutional linkages as prescribed in recommendation number 13. However, none of
these linkages focused on researching the core competencies and personal attributes of successful
Volunteers and the causes of Volunteers' early termination from service. OIG could not find
evidence of any other activities the agency had taken to address this recommendation.

To improve the VDS’ operational linkages, data analyses, and information sharing and enhance
long-term planning, outreach, and marketing address we recommend:

                    13. That the agency develop and produce management
                        analytics reports for the Volunteer Delivery System for
                        use in strategic planning, marketing, recruiting, and
                        outreach efforts.

I NF OR M A T I ON T E C H NOL OG Y
At the time of the 2003 evaluation OIG found that the computer technologies and related
databases that supported the VDS impeded staff productivity and efficiency. Databases were not
adequately maintained, were difficult to use, did not produce reliable management information,
and were not well integrated with other software applications. To address these problems, the
2003 OIG report resulted in the following two recommendations related to information
technology:

    •    That the Chief Information Officer address inefficiencies in the Volunteer Delivery System, such as:
             a) the need to sign on to each of the agency’s major applications with a separate password,
             b) software documentation and training process,
             c) the OMS expert system, and
             d) automation of the RPCV database. [#14]
    •    That the Chief Information Officer, in consultation with agency users and managers:
             a) define software and hardware requirements of the Volunteer delivery system,
             b) integrate existing operations that interface with the Volunteer delivery system,
             c) document the current inventory of the agency’s software and databases,
             d) conduct a needs assessment using enterprise information architecture to determine where the
                  agency should be over the next few years, and
             e) centrally coordinate the internal and external Web-based development activities so each can build
                  on areas of shared vision and processes. [#15]

Because the agency was redesigning the information technology systems that support the VDS,
these two recommendations were not included in the current evaluation. The VLMS and VEHS



Final Program Evaluation Report: Follow-up Evaluation of the Volunteer Delivery System                     18
will be crucial in enabling the agency to fix some of the problems with the VDS, such as long
application processing times that cause applicants to drop out of the system; an inefficient
method of matching applicant skills with the needs of overseas posts; and insufficient data-
gathering and reporting capabilities. Because the agency agreed that corrective action had not
yet been taken, an agreement was made to re-issue the recommendations, as appropriate.

                  We recommend:

                    14. That the agency define the goals of the automated
                        Volunteer Lifecycle Management System implementation
                        and develop and implement a process to measure
                        progress against these goals.
                    15. That the agency define the goals of the automated
                        Volunteer Electronic Health System implementation and
                        develop and implement a process to measure progress
                        against these goals.

M E DI C A L SC R E E NI NG
The 2003 OIG evaluation determined that the medical pre-screening process was lengthy and
placed financial burdens on applicants. Reimbursements for some of the medical screening
procedures were insufficient, which prevented some applicants, particularly those from
economically disadvantaged backgrounds, from completing the application process. In addition,
the report found that the agency had determined that the American Rehabilitation Act applied to
Peace Corps applicants, which lengthened applicant processing time and was a significant
burden to the agency (see Appendix E for an overview of the American Rehabilitation Act). As
a result, the agency was processing an increased number of applicants who had complex medical
conditions, which lengthened the time it took to render a medical clearance decision and required
numerous cycles of communications with applicants and medical providers.

To address these problems, the 2003 OIG report resulted in the following three recommendations
related to medical screening:

    •    That the Office of Medical Services increase the number of screening nurses to further reduce the screening
         time, update the screening guidelines, and provide advisory services to support modification of the expert
         system. [#16]
    •    That the agency review its coverage under the American Rehabilitation Act and determine whether it can
         bring greater flexibility into its decisions about accommodating applicants with disabilities. [#17]
    •    That OMS review the reimbursement schedule and reimbursement policies to reduce out-of-pocket costs
         for medical screening. [#18]

Our follow-up evaluation focused on the extent to which the agency has addressed
recommendations numbers 17 and 18 from the 2003 report. Recommendation number 16 was
not included because the agency stated that it planned to take corrective action as part of the
VDS redesign project. Agency management anticipates that the new VEHS would automate
many of the labor-intensive elements of the medical pre-screening process. The new system
would also assist the pre-screening nurses in matching applicants’ medical needs with posts’
medical resources. Agency management anticipates that these improvements will decrease the



Final Program Evaluation Report: Follow-up Evaluation of the Volunteer Delivery System                       19
demands on pre-screening nurses and improve processing time. Because corrective action had
not yet been taken, an agreement was made to re-issue the recommendation, as appropriate.

In response to recommendation number 17 from the 2003 report, the agency stated that the
Office of the General Counsel was going to review the Rehabilitation Act and re-examine related
agency regulations to ensure compliance with the law. In 2008, the Rehabilitation Act was
amended and broadened the definition of disability. However, agency managers stated that
Peace Corps medical screening and clearance policies and practices have not been systematically
reviewed to ensure that the agency is in compliance with the new law that became effective
January 1, 2009.

Furthermore, Peace Corps medical officers (PCMOs) interviewed as part of this evaluation
raised concerns about medically accommodated Volunteers’ impacts to post, including costs to
post to support them, increased workload for PCMOs, and limitations on where Volunteers could
be placed in the country. 23 OMS does not systematically collect data to determine the impact of
medically accommodated Volunteers on post operations, personnel, and agency resources and
whether certain accommodations pose an undue hardship on the operation of the Peace Corps.
Additionally, Volunteers who contract an illness or injury during their service or aggravate or
accelerate a pre-existing condition during service are eligible to file claims under the Federal
Employees Compensation Act (FECA). Peace Corps does not analyze post-service FECA
claims to fully understand the extent to which Volunteer service aggravates or accelerates a pre-
existing condition. This information could help the agency determine which medical conditions
can be effectively accommodated during service. More information about the data challenges
faced during this evaluation can be found in Section C: Data Availability.

In response to the 2003 report, the agency agreed to review the reimbursement policies and
schedule as prescribed by report recommendation number 18. However, it did not take
immediate steps to address the issue, and OIG reiterated the problems related to the agency’s
reimbursement policies in the March 2008 “Program Evaluation Report on the Medical
Clearance System” (IG-08-08-E). At the time of the fieldwork for the current evaluation, the
agency was assessing the feasibility of having applicants complete a portion of the medical
screening process in a facility that is contracted by Peace Corps. The assessment was intended to
calculate both the cost and the amount of time it took for applicants to be medically cleared for
service. The pilot program was scheduled to run from May 1 - September 20, 2010. No other
adjustments have been made to the reimbursement schedule.

To address the outstanding issues related to the 2003 OIG evaluation report we recommend:

                      16. That the Office of Volunteer Support develop and
                          implement strategies to reduce medical clearance
                          processing time and track progress against established
                          targets.
                      17. That the Office of General Counsel, the Office of
                          Volunteer Support, and the American Diversity Program
                          review the amended American Rehabilitation Act’s
23
     The term “medically accommodated” refers to Volunteers with special medical or site placement needs.


Final Program Evaluation Report: Follow-up Evaluation of the Volunteer Delivery System                      20
                        applicability to Volunteers and Volunteer applicants and
                        update agency policies and practices, if required. If
                        needed, the Office of Volunteer Recruitment and
                        Selection should update its processes accordingly.
                    18. That the agency systematically collect and analyze data to
                        determine whether Volunteer medical accommodations
                        pose an undue hardship on the operation of the Peace
                        Corps or any component thereof.
                    19. That the Office of Medical Services review the
                        reimbursement schedule and reimbursement policies to
                        reduce applicants’ out-of-pocket costs for medical
                        screening.

C UST OM E R SE R V I C E
The 2003 evaluation found that the agency faced systemic problems with applicant retention.
Applicants found the application process to be complicated, complex, and lengthy. A common
perception among applicants was that the application process itself was a test of their motivation,
persistence, patience, and flexibility. Additionally, VDS staff members did not have clear and
consistent customer service standards as a strategy for applicant retention. Neither the quality
nor quantity of customer service was monitored in the delivery process, nor was there a provision
for customer feedback or evaluation.

To address these problems, the 2003 OIG report made three recommendations related to
customer service:

    •    That the agency establish customer service standards for the principal delivery system offices having direct
         communications with applicants and appoint representatives to respond to complaints and evaluate
         customer service. [#19]
    •    That the Center develop information and learning tools that applicants can access on the Web site prior to
         staging. [#20]
    •    That the agency simplify and reform the unfriendly aspects of the application process. [#21]

Our follow-up evaluation focused on the extent to which the agency has addressed
recommendations numbers 19 and 20 from the 2003 report. Recommendation number 21 was
not included because the agency anticipated that the VDS redesign would lead to improvements
in the application process. Because corrective action had not yet been taken, an agreement was
made to re-issue the recommendation, as appropriate, and follow it through the corrective action
process.

In the response to recommendation number 19 from the 2003 report, the agency listed several
actions that would be taken, including customer service training for staff; the hiring of a
Retention Coordinator to serve as a point of contact for customer service relations; and a re-
organization of screening and placement staff into regional teams that would provide "an
institutional structure for a coordinated approach to customer service." Since 2003, OMS pre-
screening and VRS held customer service trainings, and VRS hired two retention specialists.
Both were temporary positions specifically focused on the retention of a small, targeted



Final Program Evaluation Report: Follow-up Evaluation of the Volunteer Delivery System                        21
population of applicants for special agency initiatives, such as the 50 Plus Initiative. 24 In
addition, the screening and placement staff were organized into regional teams for approximately
six years, but in July 2009 they were once again reorganized into sector teams.

Customer service standards have been unevenly documented in VRS’ and OMS pre-screening
unit’s policies and procedures. Though metrics to determine how quickly an applicant file is
moving through the process are tracked, customer service standards and related metrics have not
been established and are not measured. Additionally, we received feedback that different
delivery system offices view different entities as their “customer;” some view the applicant as
the overall customer and some view the post or host country as the overall customer. Based on
all of this information, OIG determined that this recommendation had not been addressed.

In response to recommendation number 20 from the 2003 report, the agency stated that it was
developing a “Training Framework Project” to address the recommendation. During this
evaluation, OIG could not find evidence that the agency implemented a project with that name.
However, a project called P.DOT (Pre-Departure Online Training) was launched and began
implementation in March 2006. P.DOT is part of My Toolkit, an online resource available to
applicants to have been invited to serve overseas. Although P.DOT was still in existence at the
time of this evaluation, it was not well known in the agency, even within Overseas Programming
and Training Support (OPATS), the office that implemented and collected content for P.DOT.
The site contained information about culture, languages, and personal responsibility
requirements as well as information about the invitee's country of service and sector-specific
resource materials that might assist in their Volunteer assignment. At the time of this evaluation,
language materials had only been developed for 33 countries. The agency was not tracking
usage of P.DOT and did not systematically gather and analyze feedback about the site's
usefulness.

To address the outstanding issues related to the 2003 OIG evaluation report we recommend:

                      20. That the agency establish customer service standards and
                          measures for the Volunteer Delivery System and evaluate
                          performance.
                      21. That the agency review the relevance and need for P.DOT
                          and determine if it will continue to make P.DOT available
                          to applicants. If so, update the content and communicate
                          changes to affected parties.

S T A F F I NG A ND ST A F F T R A I NI NG
The 2003 OIG evaluation determined that the agency suffered from persistent staff vacancies and
turnover that impeded the efficiency and productivity of the VDS. Staffing vacancies burdened
staff members who had to fulfill their own position duties while also assuming an acting
position. Also, staff serving in an acting role may not have had the authority to make decisions
or may have chosen to delay decisions until the positions were filled. High recruiter turnover
was attributed to position ratings, pay scales, and lack of opportunity for promotion. The report
also found that training opportunities for most delivery system staff were inadequate.
24
     The 50 Plus Initiative was aimed at increasing the number of Volunteers over the age of 50.


Final Program Evaluation Report: Follow-up Evaluation of the Volunteer Delivery System             22
As a result, the 2003 OIG report resulted in the following three recommendations related to
staffing and staff training:

     •   That the agency address staffing vacancies and turnover in the delivery process by filling vacancies
         promptly, developing up-to-date procedure manuals, and providing training for each position. [#22]
     •   That HRM conduct an audit of the VRS staff positions to confirm that personnel ratings, salary, and career
         opportunities are commensurate with job responsibilities. [#23]
     •   That the agency use available awards and recognition to acknowledge sustained superior performance and
         special acts. [#24]

Concerning vacancies and turnover, the agency’s response to recommendation number 22 from
the 2003 report listed several planned solutions, including updating MS 620 “Peace Corps Merit
Selection and Promotion” and developing an applicant supply file for hard-to-fill positions in
VS. At the time of this follow-up evaluation, MS 620 had not been updated since July 5, 1995.
This part of the recommendation was not met. But both VRS and OMS’ pre-screening unit were
using two methods, continuous announcements and noncompetitive eligibility for RPCVs, to
decrease the time needed to fill vacancies. The continuous announcements enabled the agency to
continuously collect applications for staff positions and create candidate rosters as soon as a
position opened up. Similarly, RPCV noncompetitive eligibility provided fast access to
candidate lists. 25 In addition, VRS standardized its position descriptions in an effort to decrease
the time needed to post job announcements and fill vacancies. However, OIG was unable to
determine whether these initiatives improved turnover and the time needed to fill vacancies.
HRM was unable to provide OIG with requested data related to turnover, average tenure, and the
amount of time it took to close vacancies. More information about the data challenges faced
during this evaluation can be found in Section C: Data Availability.

Recommendation number 22 from the 2003 report also instructed the agency to develop
procedure manuals. At the time of this evaluation, both VRS and OMS’ Pre-screening Unit had
numerous procedure manuals and standard operating procedures that were distributed to staff.
However, VRS’ Guide to Recruitment and Guide to Placement needed updates to reflect recent
organizational and process changes.

Related to the training portion of recommendation number 22, OIG found that Recruitment,
Placement, and OMS’ Pre-screening Unit all provide various training opportunities for staff, and
OMS has been improving its training program. Data from the agency’s 2009 Human Capital
Survey showed some need for training improvements in VRS and VS but did not conclusively
indicate that training is still a key issue for staff in these offices. 26

To address recommendation number 23 from the 2003 report, the agency stated that Human
Resource Management (HRM) was conducting an audit of VRS’ employees’ benefits and service
computation dates and would correct all identified data errors. Subsequently, HRM planned to

25
   Per Interim Policy Statement 3-09 Non-Competitive Eligibility, “Selecting Officials may use non-competitive
eligibility to fill vacancies with an entry grade of FP-5 or lower without first having to advertise the vacancy through
the standard…process whenever they determine that it is in the Agency's best interest to do so.”
26
   Data from the agency’s annual human capital survey was only available for all of VS; data for the OMS pre-
screening unit could not be obtained.


Final Program Evaluation Report: Follow-up Evaluation of the Volunteer Delivery System                          23
examine staff salaries, personnel ratings, and career opportunities. During this evaluation OIG
could not find evidence that HRM conducted an audit of VRS. We were unable to confirm
whether the agency had addressed the recommendation; however, we also did not find any
evidence that the underlying issues identified in the 2003 evaluation persisted.

In response to recommendation number 24 from the 2003 report, the agency stated that its
awards panel would be directed to give special consideration to sustained superior performance.
The agency also stated that MS 662 “Awards Policy” was being updated. Since the report was
issued in 2003, the agency has updated MS 662 “Peace Corps Incentive Awards Program” twice;
once in April 2004 and again in November 2007. To determine if the issues regarding rewards
and recognition had been addressed since 2003, OIG reviewed actual award data and scores from
the agency’s annual Human Capital Survey for VRS and VS, the two offices that employ the
majority of the delivery system staff. This data demonstrated that both VRS and VS were using
cash awards, time off awards, and Meritorious/Quality Step Increases to recognize employees.
Scores for awards- and recognition-related questions on the agency's 2009 Human Capital
Survey showed some room for improvement but did not conclusively indicate that rewards and
recognition was still a top concern for staff in VRS and VS.

To address the outstanding issues related to the 2003 OIG evaluation report we recommend:

                    22. That the Office of Medical Services complete the
                        development and implementation of a standardized
                        training program for the Pre-screening Unit.
                    23. That the Office of Volunteer Recruitment and Selection
                        update its procedure manuals.




Final Program Evaluation Report: Follow-up Evaluation of the Volunteer Delivery System     24
                             SECTION C: DATA AVAILABILITY

Throughout the course of this evaluation OIG encountered numerous difficulties obtaining the
data that was needed to determine if the agency would be able to maintain Volunteer quality
during growth and to verify that the agency had addressed the recommendations from the 2003
OIG report and eliminated the underlying problems.

Data was inadequate to assess performance.

GAO’s “Standards for Internal Control in the Federal Government” (GAO/AIMD-00-21.3.1)
section on Information and Communications provides the following guidance:

         Program managers need both operational and financial data to determine whether they are meeting
         their agencies’ strategic and annual performance plans and meeting their goals for accountability
         for effective and efficient use of resources.

During this evaluation, OIG was unable to fully address one of this evaluation’s research
objectives – “Assess whether the agency is positioned to support the growth and expansion of
Peace Corps without decreasing Volunteer quality.” As reported in Section A: Maintaining
Volunteer Quality during Agency Growth, the agency did not have a way to define and measure
Volunteer quality. Consequently, OIG could not determine the current level of Volunteer quality
and compare it to data from previous years. We also could not substantiate staff members’
concerns that Volunteer quality and overall suitability has decreased in the past year.

OIG was unable to confirm the impact medically accommodated Volunteers have on the
operations of Peace Corps. OMS does not systematically track the cost of accommodations, the
capacity of the host country to provide the special accommodation necessary for the applicant to
carry out their assignment, or the cumulative impact of medical accommodations. The agency
does not collect data to analyze the correlation between medically accommodated Volunteers and
post-service FECA claims to inform whether certain conditions should be accommodated and
can be effectively supported during Peace Corps service. 27

OIG was unable to analyze whether employee turnover and tenure had improved in VRS and VS
since the 2003 OIG evaluation report was issued. HRM stated that the agency did not routinely
measure turnover rates and average tenure so OIG submitted a special data request. Repeated
requests for this information were made to HRM over a three-month period but staff stated that
the information was cumbersome to gather. Human Resources provided some data to OIG but it
did not meet the specifications requested and was not suitable for our analysis.


27
  Returned Volunteers may be eligible for certain benefits under FECA if the illness or injury is related to his/her
activities as a Volunteer or is incurred during overseas service. FECA is administered by the Office of Workers'
Compensation Programs (OWCP), U.S. Department of Labor. OWCP, not the Peace Corps, decides whether
someone qualifies for medical treatment and compensation under this act.



Final Program Evaluation Report: Follow-up Evaluation of the Volunteer Delivery System                          25
OIG was unable to analyze whether the agency had improved the amount of time it took to fill
vacant positions since the 2003 OIG evaluation report was issued. HRM stated that the agency
did not routinely measure the time it takes to fill open positions. A data request was submitted to
HRM, and staff worked with OIG and representatives from the agency’s workforce management
system, Avue, to obtain data that was suitable for analysis. However, changes in organizational
structure and position titles along with the use of continuous job announcements created
problems generating meaningful data.




Final Program Evaluation Report: Follow-up Evaluation of the Volunteer Delivery System       26
                  OBJECTIVES, SCOPE, AND METHODOLOGY

OBJECTIVES
There were two primary objectives for the evaluation:

    1. Assess whether the agency is positioned to support the growth and expansion of Peace
       Corps without decreasing Volunteer quality.
    2. Determine if the findings and recommendations identified in the 2003 VDS program
       evaluation have been adequately addressed.

SCOPE AND METHODOLOGY
The purpose of OIG is to prevent and detect fraud, waste, abuse, and mismanagement and to
promote effectiveness and efficiency in government. In February 1989, the Peace Corps OIG
was established under the Inspector General Act of 1978, as amended, and is an independent
entity within the Peace Corps. The Inspector General is under the general supervision of the
Peace Corps Director and reports both to the Director and Congress.

OIG’s Evaluation Unit provides the agency with independent evaluations of all management and
operations of the Peace Corps, including overseas posts and domestic offices. OIG evaluators
identify best practices and recommend program improvements to comply with Peace Corps
policies. The Evaluation Unit announced its intent to conduct an evaluation of the VDS on
January 22, 2010. Fieldwork was conducted March 5, 2010 - July 30, 2010. The evaluation
covered fiscal years 2002 through 2009 and included 2010 data, when available.

The evaluation did not include VRS’ Staging unit or Peace Corps Response, a program in which
RPCVs undertake short-term assignments that average six months in length. Several
recommendations from the 2003 OIG evaluation report were also out of scope. Current agency
management anticipated that the VDS redesign would enable the agency to address these
outstanding recommendations, and we determined that it would be pre-mature to include them in
the scope of the follow-up evaluation.

We based our evaluation conclusions on information from document reviews, data analysis, and
interviews. We reviewed Peace Corps policies, organizational charts, standard operating
procedures, position descriptions, meeting documentation, committee charters, prior assessments
and reports, new country entry documentation, recognition award amounts, human capital survey
data, and RFPs for the VLMS and VEHS.

We analyzed VDS Steering Committee meeting agendas and meeting minutes from March
12, 2009 - January 21, 2010. Documentation for 16 VDS Steering Committee meetings was
reviewed in total. We reviewed the meeting notes to determine which offices were represented
at VDS Steering Committee meetings and the topics that were addressed. We also reviewed the
VDS Steering Committee member list and compared it to actual meeting attendees to determine
if representatives (or an appropriate delegate) from key offices were attending.



Final Program Evaluation Report: Follow-up Evaluation of the Volunteer Delivery System    27
We analyzed a sample of PAG meeting agendas and meeting minutes from June 20, 2006 -
January 19, 2010. We created an inventory of all the meeting agendas and notes available from
June 2006 - April 2010 and sampled five agendas and related meeting notes for each year for the
years 2006 - 2009. There was only one complete set of meeting agendas and notes available for
2010 so that was included in the analysis. Documentation for 21 PAG meetings was reviewed in
total. We reviewed the meeting notes to determine which offices were represented at PAG
meetings and the topics that were addressed. We also reviewed the PAG member list and
compared it to actual meeting attendees to determine if representatives (or an appropriate
delegate) from key offices were attending.

We reviewed a sample of PSRs and Training Status Reports (TSRs) from 2001, 2004, and 2009
to determine if the reports were being used to collect Volunteer performance information and
skills projections and to indicate if changes were needed in Volunteer training. 2001 was
selected because it took place before the 2003 report was issued and could be used as baseline
data. 2004 was selected to review what changes, if any, had been made soon after the 2003
report was issued. Complete 2010 data was not available so 2009 was selected to determine
current PSR and TSR contents. For each year, we judgmentally sampled one post in each of the
three regions. Nine PSRs and nine TSRs were reviewed in total.

We reviewed a sample of project plans from 2001, 2005, and 2009 to determine if the project
plans contained annual projections of the number of Volunteers needed and related assignment
areas. 2001 was selected because it took place before the 2003 report was issued and could be
used as baseline data. 2005 was selected to review what changes, if any, had been made soon
after the 2003 report was issued. Complete 2010 data was not available so 2009 was selected to
demonstrate current project plan contents. For each year, we judgmentally sampled one post in
each of the three regions. Nine project plans were reviewed in total.

We reviewed a sample of the agency's sector summaries for 2001, 2003, and 2004. Two sector
summary reports were selected for each year. We then reviewed all four of the agency’s sector
summaries for 2009 and compared the information collected therein to the information contained
in previous versions. In total, 10sector summaries were reviewed.

We reviewed P.DOT by obtaining access to a super-user account and reviewing the content
available for a randomly selected post.

We reviewed results of the agency's human capital survey. We focused on questions related to
awards and recognition, staff workload, training and employee development, and overall job
satisfaction. We compared the scores for VRS and VS to agency-wide totals and also compared
the year-to-year scores for VRS and VS for 2007, 2008, and 2009.

As part of this evaluation, the team interviewed approximately 120 staff members. We
interviewed headquarters staff in the Office of the Director; VRS; VS; OSIRP; Office of General
Counsel; OPATS; the Office of the Chief Financial Officer; HRM; the Office of
Communications; Africa Operations; Europe, Mediterranean, and Asia Operations (EMA); and
Inter-America and the Pacific Operations (IAP). We also interviewed staff in all nine RROs.




Final Program Evaluation Report: Follow-up Evaluation of the Volunteer Delivery System    28
We judgmentally selected nine out of approximately 74 active posts (three posts from each of the
three regions) and interviewed the country directors, programming staff, and medical staff. 28

The table below summarizes the interviews conducted as part of this evaluation. Parenthetical
numbers after the position titles indicate the number of people interviewed with that title, if more
than one person had the title. The information below represents individuals’ titles at the time of
fieldwork.

           Table 2. Interviews Conducted with Staff at PC/Headquarters offices,
           RROs, and Overseas Posts
                                   Position                          Organization
            Country Desk Officer                                Africa Operations
            Program and Training Specialist                     Africa Operations
            Acting Regional Director (2)                        EMA Operations and
                                                                IAP Operations
            Associate General Counsel                           General Counsel
            Manager, American Diversity Program                 Human Resources
            Chief Employee/Labor Relations                      Human Resources
            Acting Chief Financial Officer                      OCFO
            Director of Communications                          Office of
                                                                Communications
            Senior Advisor to the Chief of Staff                Office of the Director
            Supervisor, Training and Evaluation Unit            OPATS
            Instructional Systems Supervisor                    OPATS
            Director, Office Of Strategic Information, Research OSIRP
            And Planning
            Chief of Research, Evaluation and Measurement       OSIRP
            Chief of Planning, Performance and Data             OSIRP
            Management
            Country Director (8)                                Overseas posts
            Peace Corps Medical Officer (13)                    Overseas posts
            Associate Peace Corps Director (APCD)/Program       Overseas posts
                      29
            Manager (23)
            Programming and Training Officer (7)                Overseas posts
            Project Specialist                                  Overseas post
            Training Specialist                                 Overseas post
            Associate Director, Office of Volunteer Recruitment VRS
            and Selection
            VDS Program Director                                VRS
            Chief Admin Officer                                 VRS

28
   The posts that represented the Africa Region were PC/Cameroon, PC/Cape Verde, and PC/South Africa. The
posts that represented the EMA region were PC/China, PC/Romania, and PC/Turkmenistan. The posts that
represented the IAP region were PC/Belize, PC/Guatemala, and PC/Tonga.
29
   For the purpose of this evaluation, the position titles APCD and Program Manager can be used interchangeably
because they serve the same function. Regional preferences account for the variation in title.


Final Program Evaluation Report: Follow-up Evaluation of the Volunteer Delivery System                     29
                                   Position                                              Organization
            Director of Placement and Staging                                      VRS
            Director of Recruitment                                                VRS
            Placement Supervisor - Assessment                                      VRS
            Recruitment Support Manager                                            VRS
            Placement Officer (11)                                                 VRS
            Regional Office Manager (8)                                            VRS
            Recruitment Coordinator (10)                                           VRS
            Public Affairs Specialist (9)                                          VRS
            Associate Director, Office of Volunteer Support                        VS
            Pre-Service Assistant                                                  VS
            Pre-Service Nurse Team Leader                                          VS
            Post Service Manager                                                   VS
            Director, Office of Medical Services                                   VS

This evaluation was conducted in accordance with the Quality Standards for Inspections,
issued by Council of the Inspectors General on Integrity and Efficiency. Those standards require
that we plan and perform the evaluation to obtain sufficient, appropriate evidence to provide a
reasonable basis for our findings and conclusions based on our evaluation objectives. We
believe that the evidence obtained provides a reasonable basis for our findings and conclusions
based on our evaluation objectives. The findings and recommendations provided in this report
have been reviewed by agency stakeholders affected by this review.




Final Program Evaluation Report: Follow-up Evaluation of the Volunteer Delivery System                  30
       QUESTIONED COSTS AND FUNDS PUT TO BETTER USE

We did not identify any questioned costs or funds put to better use during this evaluation.




Final Program Evaluation Report: Follow-up Evaluation of the Volunteer Delivery System        31
                               LIST OF RECOMMENDATIONS

WE RECOMMEND:

    1. That the agency develop and implement a method to measure Volunteer quality.

    2. That the Office of Volunteer Recruitment and Selection develop and
       implement a standardized applicant suitability follow-up process. If
       needed, develop related tools to assist staff in implementation.

    3. That the Office of Volunteer Recruitment and Selection develop and
       implement a standardized method for staff to document the results of their
       applicant assessment.

    4. That the Office of Volunteer Recruitment and Selection develop a method
       to objectively measure the quality of each Volunteer applicant.

    5. That the Office of Volunteer Recruitment and Selection clarify and
       standardize the quality control requirements of recruitment staff and
       ensure standardized implementation of these responsibilities. Adjust
       position descriptions to reflect staff members’ quality control activities, as
       necessary.

    6. That the Office of Volunteer Recruitment and Selection develop and
       implement quality control procedures for the Office of Placement and
       adjust position descriptions to reflect staff members’ quality control
       activities, as necessary.

    7. That the Office of Volunteer Recruitment and Selection and the Office of
       Global Operations develop and implement a method to gather feedback
       from post staff on Volunteer performance and suitability for their
       assignments.

    8. That the agency develop a method to accurately track posts’ trainee
       requests and measure its ability to meet those requests.

    9. That the agency include the Office of Volunteer Recruitment and
       Selection in the new country entry decision-making process so it can
       assess availability of needed trainees and incorporate new trainee requests
       into its recruitment plans. Update MS 340 “Opening a Post” and new
       country entry assessment guidance accordingly.




Final Program Evaluation Report: Follow-up Evaluation of the Volunteer Delivery System   32
    10. That the agency develop a process to accommodate expedited trainee
        requests to support new country entries in a way that upholds Volunteer
        quality for all posts.

    11. That the Volunteer Delivery System Steering Committee, or other senior
        level committee, develop and implement a process to oversee continuous
        quality improvement of the Volunteer Delivery System.

    12. That the applicant matching process and related Assignment Area system
        be reviewed and modified to meet the requirements of post programs and
        Volunteer Delivery System activities.

    13. That the agency develop and produce management analytics reports for
        the Volunteer Delivery System for use in strategic planning, marketing,
        recruiting, and outreach efforts.

    14. That the agency define the goals of the automated Volunteer Lifecycle
        Management System implementation and develop and implement a
        process to measure progress against these goals.

    15. That the agency define the goals of the automated Volunteer Electronic
        Health System implementation and develop and implement a process to
        measure progress against these goals.

    16. That the Office of Volunteer Support develop and implement strategies to
        reduce medical clearance processing time and track progress against
        established targets.

    17. That the Office of General Counsel, the Office of Volunteer Support, and
        the American Diversity Program review the amended American
        Rehabilitation Act’s applicability to Volunteers and Volunteer applicants
        and update agency policies and practices, if required. If needed, the
        Office of Volunteer Recruitment and Selection should update its processes
        accordingly.

    18. That the agency systematically collect and analyze data to determine
        whether Volunteer medical accommodations pose an undue hardship on
        the operation of the Peace Corps or any component thereof.

    19. That the Office of Medical Services review the reimbursement schedule
        and reimbursement policies to reduce applicants’ out-of-pocket costs for
        medical screening.

    20. That the agency establish customer service standards and measures for the
        Volunteer Delivery System and evaluate performance.




Final Program Evaluation Report: Follow-up Evaluation of the Volunteer Delivery System   33
    21. That the agency review the relevance and need for P.DOT and determine
        if it will continue to make P.DOT available to applicants. If so, update the
        content and communicate changes to affected parties.

    22. That the Office of Medical Services complete the development and
        implementation of a standardized training program for the Pre-screening
        Unit.

    23. That the Office of Volunteer Recruitment and Selection update its
        procedure manuals.




Final Program Evaluation Report: Follow-up Evaluation of the Volunteer Delivery System   34
A PPE NDI X A




                           ACRONYMS AND GLOSSARY

ACRONYMS

     AA                                                                    Assignment Area
     APCD                                                   Associate Peace Corps Director
     EMA                                                   Europe, Mediterranean, and Asia
     FECA                                           Federal Employees’ Compensation Act
     IAP                                                      Inter-America and the Pacific
     IPBS                                           Integrated Planning and Budget System
     MCS                                                         Medical Clearance System
     MS                                                        Peace Corps Manual Section
     OIG                                                        Office of Inspector General
     OPATS                                    Overseas Programming and Training Support
     OSIRP                          Office of Strategic Information, Research and Planning
     PAG                                                          Program Advisory Group
     PAR                                            Performance and Accountability Report
     PCDBMS                                    Peace Corps Database Management System
     P.DOT                                                   Pre-Departure Online Training
     PST                                                              Pre-Service Training
     QTRS                                              Quarterly Trainee Request Summary
     RFP                                                              Request for Proposal
     RPCV                                                  Returned Peace Corps Volunteer
     RRO                                                         Regional Recruiting Office
     TSR                                                             Training Status Report
     VAD                                                 Volunteer Assignment Description
     VDS                                                        Volunteer Delivery System
     VRS                                               Volunteer Recruitment and Selection
     VS                                                                  Volunteer Support

G L OSSA R Y

Administrative separation. A Volunteer may be administratively separated for unsatisfactory
conduct or performance; violation of any Peace Corps policy, including those in the Peace Corps
Manual, whether agency-wide or post-specific; or other grounds that diminish the effectiveness
of the Volunteer or the Peace Corps program, as determined in the sole discretion of the Peace
Corps.

Almost match. Applicants who do not meet the skill requirements on the Volunteer Assignment
Description (VAD) cover sheet, but possess similar qualifications and may have the skills to
perform the assignment as outlined in the VAD.
A PPE NDI X A


Generalists. Volunteers who are recent college graduates with little or no professional
experience.

Invitee. An applicant that has been invited by a placement officer to a specific volunteer
assignment.

Mis-nomination (or Mis-noms). A nominee who does not meet the requirements of the
Assignment Area to which he/she was nominated.

Nomination Pool. Applicants who are nominated to groupings based on specific requirements.

Staging. A pre-departure event to orient trainees to the Peace Corps and the general demands of
being a healthy, safe, and effective Volunteer so that when they arrive at post they are ready to
learn and to adjust to life as Peace Corps Volunteers. Also known as Pre-departure Orientation.

Trainee. A person who has attended a staging event but has not yet sworn-in to volunteer
service. During this phase of the volunteer lifecycle, a person attends pre-service training (PST).

Training class. Volunteers are inducted to the Peace Corps through country-specific training
classes held on a quarterly basis. The Training Class is a cohort that goes through training and
service as a group.

Volunteer. A person who has been sworn in and is working on a Peace Corps project in a Peace
Corps post.
A PPE NDI X B




                                ASSIGNMENT AREAS

Following is the list of Assignment Areas (AAs) and a sample description of one AA, as
provided in the March 2009 AA Booklet.

Environment
100 – Forestry                                     Business
103 – Protected Areas Management                   134 – Urban and Regional Planning
104 – Environmental Education                      140 – Business Advising
                                                   143 – Information and Communication
Agriculture                                        Technology
110 – Applied Agriculture Science                  144 – Business Development
114 – Agribusiness                                 145 – Non-Governmental Organization
115 – Animal Husbandry                             Development
117 – Agriculture and Forestry Extension
                                                   Education
Community Services                                 170 – Primary Education
122 – General Construction and Education           171 – English Teacher
162 – Community Development                        172 – University English Teaching
164 – Youth Development                            173 – Secondary Education-Math
                                                   175 – Secondary Education-Science
Health                                             177 – Special Education
124 – Water and Sanitation Extension               191 – English Teacher Trainer
131 – Environmental and Water Resources
Engineering                                        Other
154 – Public Health Education                      199 – Unique Skills
155 – Health Extension

Sample AA description
 100 Forestry

      A. BA/BS any degree plus 3 years work experience in forestry or nursery management
      B. BS/AS Forestry or Watershed Management
      C. BS/AS Natural Resources, Environmental Science or Ecology,
      D. BS Biology, Botany, Ornamental Horticulture or Geology; with a minimum of 6
      months growing experience or field work (nursery, greenhouse, gardening or farming).

 Example of a good 100 conditional nomination: An applicant who does not have a degree but
 has substantial experience running a forestry business or managing forestry property; an
 applicant who has substantial course-work in forestry, botany or conservation and some
 hands-on growing experience; a strong 104 with growing experience.
A PPE NDI X C




AGENCY’S RESPONSE TO THE 2003 OIG EVALUATION OF THE
            VOLUNTEER DELIVERY SYSTEM

1. That a senior official be appointed to chair a management committee from each major
office involved in the delivery system to prepare a blueprint for delivery system process
changes and continuous improvements.
    Concur. This function will be integrated into the Program Advisory Group (see #3 for
    specifics of PAG activities).

2. That the assignment area classification system be reviewed and changed to meet the
requirements of post programs and stateside Volunteer delivery activities.
    Concur. The Agency has tasked the newly constituted Program Advisory Group to review
    and revise the assignment area classification system and make recommendations to the
    responsible divisions (Volunteer Recruitment and Selection, Regions, The Center for Field
    Assistance and Applied Research). Assignment area classification system review is already
    complete, and we estimate 3 years for full implementation of changes. Procedures and
    changes are being integrated into PAG.

3. That the Agency reconstitute the Program Advisory Group with the appropriate
managers.
    Concur. The Agency has reconstituted the Program Advisory Group as a Senior Director
    level forum established to discuss programming issues and allocate trainee resources among
    the three Regions and VRS. Its primary responsibility is to monitor the Agency’s supply and
    demand functions with respect to recruitment, selection, and training in support of Trainee
    issues. It has held its first planning meeting and will continue meeting monthly. (Several
    specific activities have been identified, including management of 3 yr. out Trainee Request
    Summaries against the VRS 3 yr. projections.)

4. That VRS redesign the Trainee request guidelines handbook for clarity and content and
distribute an updated version to posts and regions on an annual basis.
    Concur. VRS will lead the revision of the Trainee Request Handbook in collaboration with
    the Center in 2003. Proposed completion date is Q4, 2003. VRS will review the Handbook
    annually for clarity and content and distribute to Agency staff accordingly.

5. That VRS redesign the QTRS to capture more detailed information on the work duties
and skill competencies required for future assignments.
    Concur. VRS and Regions have made continuous improvements to the Quarterly Trainee
    Request Summary form over the last several months. In addition, the Agency has tasked the
    Office of Information Resources Management (IRM) to design the optimal new QTRS
    mainframe form. Expect implementation of the new form by Q4, FY 04.
A PPE NDI X C


6. That the Office of Planning, Budget and Finance redesign the IPBS document to collect
posts’ Trainee request data with the specific assignment areas for a three-year period and
that this data serve as the primary source of Trainee request data for the delivery system
offices and agency planners.
    Concur. For FY03, regional IPBS guidance to posts includes instructions to incorporate
    information on out-year recruitment currently captured in Project Status Reports. There are 2
    strategies in place: Long term strategy includes adjusting the Peace Corps Database
    Management System to be able to enter the Trainee Status Report/Program Status Report
    data, which will track the 3 yr. IPBS document, against VRS projections. Until that time,
    through PAG, short-term solutions are being developed to bring together the data into one
    tracking system. Expect completion in Q4, 2003

7. That the Center redesign the project status and training status reports to capture
feedback on Trainee and Volunteer performance and the skill competencies under
consideration for future training classes.
    Concur. The Center will redesign the PSR/TSR reports to collect required performance
    information and skills projections. (The current PSR form contains two questions that link
    Volunteer training to project performance.) Project outcome reporting will also demonstrate
    the quality of Volunteer performance and provide indications of needs for changes in
    Volunteer training. Redesign will be completed by Q2, 2004.

8. That the Center redesign the project plan and project framework documents to capture
the specific number of Volunteers projected per year per assignment area for the life of the
project and that this information be available for long-term delivery system marketing and
outreach activities.
    Concur. By Q3, ’03, the Center will insert these information fields into project plan and
    framework documents. In addition, it will develop written guidance for staff to help them
    make skills projections over the life of the project, or three years if project is longer. (Est.
    completion by Q4, 04.) The Center will assist posts to incorporate this information into their
    project plans and frameworks, and, through the ongoing TSR/PSR quarterly meetings, will
    share this information with Communications and other groups responsible for the Agency’s
    marketing and outreach activities.

9. That VRS and the regions collect projected post Trainee request data and maintain it on
the PCDBMS for the development of analytical reports.
    Concur. (See #6) The Agency is undergoing a full enterprise architecture updating and
    upgrading to meet the long-term objectives. An integral part of this project is the more
    efficient collection and availability of Trainee request data in order to project long term needs
    and challenges, as well as to effectively analyze the data and generate reports through the
    PCDBMS. The Regions and VRS will assist IRM in the development of this part of the
    enterprise architecture updating.

10. That the Center include in the annual project and training status global summary
report an in-depth analysis of program trends as well as assignment areas and the skill
competencies required for assignments.
A PPE NDI X C


    Concur. The Center will conduct an in-depth analysis of PSR/TSR reports and will redesign
    the global summary report format to reflect this information. We will produce the 2003
    report in this new format.

11. That the renovation committee consider how Trainee and Volunteer Demand
information from the posts might be collected for the IPBS, PSR, QTRS, and project plan
processes via a single format that is regularly updated and incorporated to eliminate
duplication and achieve comparability and consistency.
    Concur. The Agency’s newly reconstituted PAG is charged with producing a business model
    to delineate the appropriate processes in order to review and coordinate the trends,
    developments, and indicators pertaining to recruitment/TI flow and suggest adjustments
    where necessary. Also see #’s 3, 6, and 9.

12. That the office of Policy, Planning and Analysis create assessment tools and conduct
studies to generate systematic feedback on the performance of Trainees and Volunteers,
core competencies and personal attributes of successful Volunteers, and the causes of
Volunteers' early termination from service.
    Concur. The Agency is currently developing resources, such as the Close of Service
    Evaluation, Host Country National Survey, and other evaluative tools to generate systematic
    performance assessments, core competencies and personal attributes of successful
    Volunteers. We are presently in the process of enhancing our analysis of early terminations
    and will continue to collect, analyze and report on the underlying causes for resignations
    within the context of early terminations.

13. That the agency develop institutional linkages and partnerships with universities and
colleges interested in conducting formal research regarding the performance of Trainees
and Volunteers, core competencies and personal attributes of successful Volunteers, and
the causes of Volunteers' early termination from service.
    Concur understanding this to mean that the Agency, through its office of Policy, Planning
    and Analysis, will consider and review all independent research possibilities. PPA has
    established studies and surveys to determine the causes of Early Termination, as well as
    better honing in on the core competencies and personal attributes of successful Volunteers.
    (see #12).

14. That the Chief Information Officer address inefficiencies in the Volunteer delivery
system, such as:
     a) the need to sign on to each of the agencies major applications with a separate
     password,
     b) software documentation and training process,
     c) the OMS expert system,
     d) and automation of the RPCV database.
    Concur. The need for employing “Single Sign-On” technology has been researched and the
    determination has been made that the agency does not have the funds to pay for this
    technology at this time. Action to address the software documentation and training process
    has also begun. Additional procedures and tools have been acquired or are under
A PPE NDI X C


    development that will improve efficiencies in this area. Substantial work has been done to
    improve automation support of the RPCV database and additional work is planned for it as
    well as the OMS expert system software. We will continue improving these systems as
    funding becomes available.

15. That the Chief Information Officer, in consultation with Agency users and managers:
     a) define software and hardware requirements of the Volunteer delivery system,
     b) integrate existing operations that interface with the Volunteer delivery system,
     c) document the current inventory of the agency’s software and databases,
     d) conduct a needs assessment using enterprise information architecture to determine
     where the agency should be over the next few years, and
     e) centrally coordinate the internal and external Web-based development activities so
     each can build on areas of shared vision and processes.
    Concur. On October 23rd, 2002, the Office of the CIO formally launched an Enterprise
    Information Architecture (EIA) Program that, among other things, will address all of the
    issues associated with this recommendation. VDS has been identified as a key initiative of
    the EIA program and its highest priority focus area. The existing business processes as well
    as the system relationships and interdependencies will all be documented and mapped. The
    Agency intends to complete work on the “AS IS” portion of VDS, develop a detailed project
    plan, and complete a number of enhancements to high priority components of the existing
    VDS software outlined in this recommendation by the end of FY 2003.

16. That the Office of Medical Services increase the number of screening nurses to further
reduce the screening time, update the screening guidelines, and provide further advisory
services to support modification of the expert system.
    Concur. The Agency is committed to reducing the time to process applications. OMS has
    recently hired two new screening nurses. OMS has a staffing formula that analyzes staffing
    needs based on productivity standards and number of nominations. Screening guidelines are
    being updated on a routine basis. The screening process has been revised and has reduced the
    amount of time it takes to make a decision by one hour per applicant. OMS has also
    reorganized the nurses by region, thereby making further reductions in screening time (see
    #14 and 19).

17. That the agency review its coverage under the American Rehabilitation Act and
determine whether it can bring greater flexibility into its decisions about accommodating
applicants with disabilities.
    Concur. The Office of the General Counsel (OGC) is reviewing the Rehabilitation Act and
    the related jurisprudence concerning coverage of Peace Corps Volunteer applicants. Within
    that framework, the Agency will re-examine Peace Corps regulations (22 CFR Part 305) to
    ensure that they are in compliance with the statutory and case law. As necessary, OGC will
    work with American Diversity Program and OMS to help them apply the law to the
    Agency’s medical screening practices, including with regard to reasonable accommodation
    of disabilities.
A PPE NDI X C


18. That OMS review the reimbursement schedule and reimbursement policies to reduce
out-of-pocket costs for medical screening.
    Concur. OMS has reviewed the reimbursement schedule and will present findings in 2003. In
    addition, staff has been working with the Office of Private Sector Initiatives in order to
    increase our current budget allocation with additional funding to defer costs of necessary
    clinical procedures/testing.

19. That the Agency establish customer service standards for the principal delivery system
offices having direct communications with applicants and appoint representatives to
respond to complaints and evaluate customer service.
    Concur. The Agency places a high priority on ensuring satisfaction in customer service.
    OMS and VRS initiated a plan in January 2002 to address customer service and training on
    these issues. Training has already occurred and will continue. VRS has plans to hire a
    Retention Coordinator in 2003, and one of the functions of that position will be the first point
    of contact for customer service relations. OMS has a customer service complaint tracking
    system that is currently being revised for efficiency.

    The screening and placement staff has been recently organized into regional teams. The
    teams will provide an institutional structure for a coordinated approach to customer service.
    The manager of each clinical team is the first point of contact. The Agency has established
    routine meetings with screening, VRS and the Regions, to address customer service issues
    and standards for all entities along the Volunteer delivery system.

20. That the Center develop information and learning tools that applicants can access on
the Web site prior to staging.
    Concur. The Center, in collaboration with representatives from the Regions, VRS, and
    Communications, is working on the Training Framework Project to develop the initial part of
    a training system and recruitment support tools. These will begin with recruitment and go
    through application, nomination, invitation and staging. The project focuses on the design
    and implementation of instructional product (including Volunteer Voices video clips) via
    distance learning, to develop better informed, motivated, committed trainees who will be
    effective, healthy, and safe throughout their service as volunteers. Proposed completion is
    Q4, 2003.

21. That the agency simplify and reform the unfriendly aspects of the application process.
    Concur. The Agency’s 90-day task force report and the previous OIG VDS study made
    recommendations on how to simplify the application process. In 2003, OMS and VRS will
    review these recommendations and identify major areas to simplify and revise the process as
    needed. OMS and VRS will work with the Office of Communications to identify areas for
    improvement in the application materials. The Office of Communications will commence
    redesign of the print materials associated with the application and invitation stages in Q4 of
    2003. The Agency has also posted the application on-line, which has made the application
    process much easier to use as well as to track.
A PPE NDI X C


22. That the Agency address staffing vacancies and turnover in the delivery process by
filling vacancies promptly, developing up-to-date procedure manuals, and providing
training for each position.
    Concur. HRM has recently updated Peace Corps Manual Section 620, Peace Corps Merit
    Section and Promotion. The updated section is now with OGC for review and comment. A
    Supervisory Training Module was developed and implemented for new supervisors and
    managers. The seminar covers EEO, employee/labor relations, performance management,
    merit staffing, classification and recruitment, addressing poor performers, awards, and
    workers compensation. HRMA is working with Volunteer Support to establish an applicant
    supply file for hard to fill nursing and physician position. The application submission
    requirement on vacancy announcements has been revised so that applicants must now
    address each required and desired qualification requirement on a separate sheet of paper. This
    has streamlined the number of applicants being referred to an office and subsequently curtails
    the length of time it takes to issue a roster.

23. That HRM conduct an audit of the VRS staff positions to confirm that personnel
ratings, salary, and career opportunities are commensurate with job responsibilities.
    Concur. HRM’s audit of VRS is currently underway. A review of each employee’s benefits
    and service computation dates has been completed (recruitment, health and life insurance,
    TSP, and supporting documentation). All data found to be in error will be corrected by April
    30, 2003 and the employees notified. Once this phase has been completed, HRM will
    proceed to examine the staff’s salaries, personnel ratings, and career opportunities. HRM will
    follow suit by auditing the Official Personnel Folders of remaining agency staff

24. That the agency use available awards and recognition to acknowledge sustained
superior performance.
    Concur. The Agency has an awards panel, per Manual section 662- Awards Policy, which is
    currently being updated and should be completed by Q3 ‘03. The panel convenes once per
    month to determine awards and awardees. Guidance will be given to the panel that as they
    review the incentive awards for the work force to give special consideration to sustained
    superior performance possibilities. Fully instituted into meetings agendas by Q3 ’03.
A PPE NDI X D




       ELIGIBILITY FOR PEACE CORPS VOLUNTEER SERVICE

Following is an excerpt from MS 201 “Eligibility and Standards for Peace Corps Volunteer
Service.”

§305.2 Eligibility
In addition to those skills, personal attributes and aptitudes required for available Volunteer
assignments, the following are the basic requirements that an applicant must satisfy in order to
receive an invitation to train for Peace Corps Volunteer service.

(a) Citizenship The applicant must be a citizen of the United States or have made arrangements
satisfactory to the Office of Marketing, Recruitment, Placement and Staging (MRPS) and the
Office of General Counsel (D/GC) to be naturalized prior to taking the oath prescribed for
enrollment as a Peace Corps Volunteer. (See Section 5[a] of the Peace Corps Act, as amended).

(b) The applicant must be at least 18 years old.

(c) Medical Status The applicant must, with reasonable accommodation, have the physical and
mental capacity required of a Volunteer to perform the essential functions of the Peace Corps
Volunteer assignment for which he or she is otherwise eligible, and be able to complete an
agreed upon tour of service, ordinarily two years, without unreasonable disruption due to health
problems.

In determining what is a reasonable accommodation, the Peace Corps may take into account the
adequacy of local medical facilities. In determining whether an accommodation would impose an
undue hardship on the operation of the Peace Corps, factors to be considered include:

        1. the overall size of the Peace Corps program with respect to the number of employees
        and/or Volunteers, size of budget, and size and composition of staff at post of
        assignment,

        2. the nature and cost of the accommodation, and

        3. the capacity of the host country agency to which the applicant would be assigned to
        provide any special accommodation necessary for the applicant to carry out the
        assignment.

(d) Legal Status The applicant must not be on parole or probation to any court or have any court
established or acknowledged financial or other legal obligation which, in the opinion of D/GC
and MRPS, cannot be satisfied or postponed during the period of Peace Corps service.

(e) Intelligence Background In accordance with longstanding Peace Corps policy, prior
employment by any agency of the United States Government, civilian or military, or division of
such an agency, whose exclusive or principle function is the performance of intelligence
A PPE NDI X D


activities; or engaging in intelligence activities or related work may disqualify a person from
eligibility for Peace Corps service. See Section 611 of the Peace Corps Manual.

(f) Marital Status

        1. Ordinarily, if an applicant is married or intends to marry prior to Peace Corps service,
        both husband and wife must apply and qualify for assignment at the same location.
        Exceptions to this rule will be considered by the Office of Volunteer Placement
        (MRPS/P) under the following conditions:

        2.

             i. Unaccompanied Married Applicant. In order to qualify for consideration for Peace
             Corps service, a married applicant whose spouse does not wish to accompany him/her
             overseas must provide the Office of Placement (MRPS/P) with a notarized letter from
             the spouse acknowledging that he or she is aware of the applicant spouse's intention
             to serve as a Peace Corps Volunteer for two years or more and that any financial and
             legal obligations of the applicant to his or her spouse can be met during the period of
             Peace Corps service. In determining eligibility in such cases, MRPS/P will also
             consider whether the service of one spouse without the accompaniment of the other
             can reasonably be anticipated to disrupt the applicant spouse's service overseas.

             ii. In addition to satisfying the above requirements, a married applicant who is legally,
             or in fact, separated from his or her spouse, must provide MRPS/P with copies of any
             agreements or other documentation setting forth any legal and financial
             responsibilities which the parties have to one another during any period of separation.

             iii. Divorced Applicants. Applicants who have been divorced must provide MRPS/P
             with copies of all legal documents related to the divorce.

(g) Dependents Peace Corps has authority to provide benefits and allowances for the dependent
children of Peace Corps Volunteers who are under the age of 18. However, applicants with
dependent children under the age of 18 will not be considered eligible for Peace Corps service
unless MRPS/P determines that the skills of the applicants are essential to meet the requirements
of a Volunteer project, and that qualified applicants without minor dependents are not available
to fill the assignment.

        1. Procedures for Placing Volunteers with Children. The placement of any couple with
        dependent children must have the concurrence of the appropriate Country and Regional
        Director.

        2. If the applicant has any dependents who will not accompany him or her overseas, the
        applicant must satisfy MRPS/P and the General Counsel that adequate arrangements have
        been made for the care and support of the dependent during any period of training and
        Peace Corps service; that such service will not adversely affect the relationship between
        the applicant and dependent in such a way as to disrupt his or her service; and that he or
A PPE NDI X D


        she is not using Peace Corps service to escape responsibility for the welfare of any
        dependents under the age of 18.

        3. Married couples with more than two children or with children who are below two years
        of age are not eligible for Peace Corps service except in extraordinary circumstances as
        approved by the Director of the Peace Corps or designee.

(h) Military Service Applicants with military or national guard obligation must provide
MRPS/P with a written statement from their commanding officer that their presence will not be
required by their military unit for the duration of their Peace Corps service, except in case of
national emergency.

(i) Failure to Disclose Requested Information Failure to disclose, and/or the misrepresentation
of material information requested by the Peace Corps regarding any of the above described
standards of eligibility may be grounds for disqualification or separation from Peace Corps
Volunteer service. (See Section 284 of the Peace Corps Manual).
A PPE NDI X E




                          AMERICAN REHABILITATION ACT

The Rehabilitation Act of 1973, as amended, prohibits discrimination on the basis of disability
for programs or activities sponsored by the Federal Government. 30 In accordance with this Act,
the Office of Medical Services (OMS) assesses each Peace Corps applicant to evaluate his/her
physical and mental capacity to perform the essential functions of a Peace Corps Volunteer
(PCVs). With reasonable accommodation, PCVs must be able to perform these functions
without unreasonable risk of disruption of service or unreasonable risk to their health. OMS
determines whether an applicant is medically qualified for Peace Corps service and identifies
country-specific resources that would allow disabled applicants to serve safely and effectively as
PCVs.

The Medical Accommodation Program within OMS is designed to facilitate the decision making
process regarding applicants with special medical or site placement needs. The Screening Team
and/or the Medical Placement Coordinator review all applicants who need special medical and/or
site placement. Applicants with conditions that require special medical monitoring, i.e., beyond
routine care, are cleared by the Screening Team for country-wide service in countries that can
support such monitoring. Applicants with conditions that require a specific geographic location
or require proximity to an urgent care medical facility are cleared for site-specific service by the
Medical Placement Coordinator. This process may include consultation between the OMS,
VRS, and Peace Corps post staff.

In support of the accommodation process, OMS has developed “Accommodation Lists” for
common medical conditions. Accommodation Lists are lists of countries with medical resources
and environmental conditions which OMS determines are adequate to meet the needs of
Volunteers with specific medical conditions. The accommodation lists are reviewed and updated
as necessary to reflect changes in host country health conditions, environmental issues, and
health care resources. 31

Peace Corps Medical Technical Guideline 195 “Medical Conditions that Require Special In-
country Placement” explains the policy and procedures for inviting applicants to serve as Peace
Corps Volunteers who, for medical reasons, may be assigned only to certain sites in-country, or
otherwise have some special in-country requirements. Attachment A, section III of this
guideline defines Peace Corps’ legal obligations as follows:

        In general, the Peace Corps is legally required to make reasonable accommodations for disabled individuals
        who, with such accommodations, are qualified to be Volunteers. As the senior agency official at post, the
        CD is responsible for ensuring that the agency meets its legal obligation to provide such accommodations.
        Although the question whether a given accommodation is required under the law will necessarily depend
        upon the particular facts of each case, there are a few basic principles that should inform posts’ approach to
        the issue.


30
  See 29 U.S.C. § 791- 94 (2010).
31
  From the “Site Specific and Country Wide Accommodation” guidance documentation produced by the Quality
Improvement Unit in the Office of Medical Services.
A PPE NDI X E


        The law does not require an accommodation if it is incompatible with the essential mission and operations
        of the Peace Corps, or with the essential functions of the Volunteer’s assignment, or if it would endanger
        the individual or others. In short, the law recognizes that there are limits to the accommodations that it is
        reasonable or feasible to make. For example, we may not be able to require a host country to build ramps
        to make a given Volunteer site wheelchair accessible, but we may be required to make such changes to
        Peace Corps facilities. At bottom, whether the Peace Corps is required to make a given accommodation is
        a legal determination; thus when a post decides that it cannot place a Volunteer with identified limitations
        or medical needs, that decision may raise a legal issue and must be reviewed by OGC.
A PPE NDI X F



                        MANAGEMENT’S RESPONSE TO
                         THE PRELIMINARY REPORT




MEMORANDUM

To:             Kathy Buller, Inspector General

From:           Daljit K. Bains, Chief Compliance Officer

Date:           November 12, 2010

CC:             Carrie Hessler-Radelet, Deputy Director
                Stacy Rhodes, Chief of Staff
                Joaquin Ferrao, Deputy Inspector General
                Jim O’Keefe, Associate Inspector General, Evaluations
                Rosie Mauk, Associate Director, Office of Volunteer Recruitment and Selection
                Jules Delaune, Associate Director, Office of Volunteer Support
                Michael McKay, Chief of Operations, Office of Volunteer Recruitment and
                Selection

Subject:        Response to the Preliminary Program Evaluation Report: Follow-up Evaluation of
                the Volunteer Delivery– October 2010


Enclosed please find the Agency’s response to the recommendations made by the Office of the
Inspector General for the Follow-up Evaluation of the Volunteer Delivery System.

The Agency concurs with all 23 recommendations. With the implementation of the Dove
System, the Agency looks forward to addressing and closing all recommendations made in the
current evaluation and in the 2003 VDS Evaluation Report.

The Agency appreciates the efforts and collaboration of the OIG in conducting this evaluation.

If there are any questions on the Agency responses, please do not hesitate to contact me.
A PPE NDI X F


1: That the Agency develop and implement a method to measure Volunteer quality.

Concur: VRS has met with the Agency Assessment Team and has concluded that Volunteer
quality is currently defined by the criteria VRS uses to recruit and place Volunteers. VRS will
collaborate with OGO, OSIRP, the Agency Assessment team (specifically the Assessment Field
Resource Group) to determine if additional criteria should be considered when measuring
Volunteer quality. If it is determined that criteria, in addition to what is currently defined, can be
implemented to measure Volunteer Quality then VRS will use this input to develop and
implement a method. If it is determined that the criteria already defined is sufficient, then a
memo stating that will be shared.

Document to be submitted: Summary of meeting between VRS and Agency Assessment Team

Completion Date: April 2011


2: That the Office of Volunteer Recruitment and Selection develop and implement a
standardized applicant suitability follow-up process. If needed, develop related tools to
assist staff in implementation.

Concur: In June of 2010, the Director of Recruitment issued a memo to the nine Regional
Recruitment Offices identifying and implementing standard practices throughout the application
process. The Director of Recruitment continues to work with recruitment staff to evaluate and
standardize practices across all nine Regional Offices in conjunction with the implementation of
the VLMS system.

Document submitted: Memo from Shari Hubert, Director of Recruiting to Regional Recruiting
Offices dated June 2010

Completion Date: November 2010


3: That the Office of Volunteer Recruitment and Selection develop and implement a
standardized method or staff to document the results of their applicant assessment.

Concur: The Office of Recruitment currently documents an applicant’s suitability on the
interview guide and in the final assessment form. The Office of Recruitment is revising the
interview guide to include standardized suitability rating scores. This method will allow
Recruiters to more objectively assess applicants. The Placement Office has developed a
standardized suitability follow-up questionnaire used by Placement Officers when collecting
additional information from applicants. Four assessment criteria are discussed in this document:
Motivation and Commitment, Productive Competence, Social Sensitivity/Cultural Awareness
and Emotional Maturity. Additionally, each section contains a list of questions used to assist in
determining the level each of these qualities in the applicant.

Document submitted: Placement Standardized Suitability Follow-up Questionnaire
A PPE NDI X F



Documents to be submitted: Revised interview guide to include standardized suitability rating

Completion Date: Implementation of VLMS – estimated June 2011


4: That the Office of Volunteer Recruitment and Selection develop a method to objectively
measure the quality of each Volunteer applicant.
Concur: The VLMS will incorporate a system by which feedback from posts on Volunteer
quality is documented.

Completion Date: Implementation of VLMS – estimated June 2011


5: That the Office of Volunteer Recruitment and Selection clarify and standardize the
quality control requirements of recruitment staff and ensure standardized implementation
of these responsibilities. Adjust position descriptions to reflect staff members’ quality
control activities, as necessary.

Concur: The Office of Recruitment has implemented standardized quality control methods to
ensure the accuracy and completeness of files. Recruitment Offices use a standard document
checklist that goes into each file and recruitment staff screens each file for completeness before it
is forwarded to the Placement Office. VRS has revised the system through which the Placement
Office provides feedback to the Regional Offices on applicant files, and has implemented a
standardized file tracking system as a part of the PCAPP’s Program. The late file report also
helps ensure that files are received into HQ from RROs within 30-45 days of nomination. VRS
is reviewing position descriptions as part of the recommendations issued in the Agency
Assessment. VRS also provides specific quality control metrics and performance metrics within
the performance review standards and elements provided to Recruiters and Placement Officers
and Placement Assistants (POs/PAs).

Documents submitted: Office of Recruitment Standardized Quality Control Methods;
Placement Standardized File Tracking System; VRS Quality Control and Performance Metrics
within the Performance Review Standards for Regional Recruiters and Placement Officers and
Assistants
 Documents to be submitted: Revised Position Descriptions will be submitted upon approval
and completion of the assessment recommendations

Completion Date: September 2011


6: That the Office of Volunteer Recruitment and Selection develop and implement quality
control procedures for the Office of Placement and adjust position descriptions to reflect
staff members’ quality control activities, as necessary.
A PPE NDI X F


Concur: During the re-organization of the Placement Office from a country desk to skills desk
model, VRS reviewed the position descriptions for placement staff. Managerial functions were
amended to encompass the three new and distinct roles; Review, Assessment, and Operations.
The managers that assumed these positions have created quality control and customer service
standards for their units including; the development of new initial and ongoing training for their
staff, consolidated function among units, and the monitoring and review of quantitative
indicators including but not limited to; files screened, invitations made, legal dispositions, and
others. The staff has responded well to these initiatives and is performing at a high level.

Documents submitted: Position Descriptions for Placement Staff

Completion Date: November 2010


7: That the Office of Volunteer Recruitment and Selection and the Office of Global
Operations develop and implement a method to gather feedback from Post staff on
Volunteer performance and suitability for their assignments.

Concur: The design and development of tools to assess the suitability of individuals to become
Peace Corps Volunteers and to assess their performance as Peace Corps Volunteers is currently
the responsibility of VRS, OPATS, Regions, OSIRP, and the Office of Global Operations. The
VLMS (Volunteer Lifecycle Management System) will be able to capture and maintain
requested data based upon criteria generated by the key stakeholders. Once in the VLMS, the
data can be tracked and reported. Implementation can begin with the deployment and
development of the VLMS.

Completion Date: Implementation of VLMS – estimated June 2011


8: That the agencies develop a method to accurately track Posts’ trainee requests and
measure its ability to meet those requests.

Concur: Posts’ requests for trainees will automatically be tracked in the VLMS upon its
deployment. Post requests are at the first level of information gathering and documentation in
the new workflow system. Based on specific identified agency needs, reports for tracking and
reporting will be developed in the VLMS. Requests generated within the VLMS can be tracked
at multiple levels, from individuals to the level of the entire agency. All requests and all
dispositions will be stamped with names, dates and times for accurate tracking and reporting.

Completion Date: Implementation of VLMS – estimated June 2011


9: That the Agency include the Office of Volunteer Recruitment and Selection in the new
country entry decision-making process so it can assess availability of needed trainees and
incorporate new trainee requests into its recruitment plans. Update MS 340 “Opening a
Post” and new country assessment guidance accordingly.
A PPE NDI X F



Concur: New country assessment teams generally have representation by Safety and Security,
Office of Medical Services, Regional Representation and Programming Staff. Prior to
performing a new country assessment, research is conducted to understand the economic, social
and political factors of the country.
As a part of the initial research process, the new country assessment team will consult with VRS
to determine availability of skill levels in the technical areas the team is expecting to assess.
The debrief meeting will also include representation from VRS so that they can incorporate new
trainee requests in their recruitment plans. The New Country Assessment Guide, which is
referenced in MS 340, will be updated in the Programming Section to ensure that Programming
staff are taking into account the needs of VRS when conducting a new country assessment. MS
340 is not deemed the appropriate place to include this information.

Completion Date: January 2011


10: That the agencies develop a process to accommodate expedited trainee requests to
support new country entries in a way that upholds Volunteer quality for all posts.

Concur: Currently the Placement Office prioritizes new country entries (NCE) when the Region
makes the request. Once a NCE is announced, the Office of Recruitment is asked to prioritize
qualified applicants for the program. Additionally, applicants who are already in the system are
screened for possible placement in the NCE. Once candidates have been identified, VRS
requests OMS to prioritize the medical review. Upon medical clearance, NCE candidates are
prioritized for invitation.

The prioritization is dependent upon the timing of the new request. VRS is evaluating and
formalizing a process for this.

Completion Date: January 2011
11: That the Volunteer Delivery System Steering Committee, or other senior level
committee, develop and implement a process to oversee continuous quality improvement of
the Volunteer Delivery System.

Concur: Continuous quality improvement is an ongoing process with VDS. With having
identified a software to implement, the quality improvements have been identified and we are
looking to have them be a part of the implementation of the VLMS. Additionally, the Volunteer
Delivery System Steering Committee will be reformatted to focus on the continuous quality
improvement of the Volunteer Delivery System and will develop a process and meet quarterly to
monitor VDS quality. A smaller sub-committee will be convened to focus on the implementation
of DOVE.

Document to be submitted: Recommendation memo to Deputy Director on reorganization of
the VDS Steering Committee

Completion Date: December 2010
A PPE NDI X F


12: That the applicant matching process and related Assignment Area system be reviewed
and modified to meet the requirements of Post programs and Volunteer Delivery System
activities.

Concur: The RFP for the VLMS required that the Vendor (Kenexa) provide the functionality for
matching defined program needs with applicant profiles through the use of multi-matching
criteria. A process for matching applicants with Post requests is fundamental to the design of the
VLMS. This issue has been at the core of VDS redesign discussions for at least 24 months, as
outlined in the VDS Redesign Roadmap of January, 2009. The VLMS has the functional
capability to accommodate evolving Agency needs and priorities, including relevant
recommendations from the Agency Assessment.

Documentation submitted: VDS Redesign Roadmap

Completion Date: November 2010


13: That the agency develop and produce management analytics reports for the Volunteer
Delivery System for use in strategic planning, marketing, recruiting and outreach efforts.

Concur: The agency currently operates in a technology environment with limited analytics
capability. Current reports often do not meet operations needs, and offer limited business
intelligence. In the Volunteer Lifecycle Management System (VLMS) contract award, specific
requirements are included to provide the agency with enhanced reporting capabilities. The
vendor will be providing industry-standard reports on marketing, recruiting and outreach efforts,
as well as customized reports to fit the unique needs of the Peace Corps. In addition, ad hoc
report creation capability will be provided to further augment agency needs. These technology
improvements will allow the agency to develop proper analytics to support the Volunteer
Delivery System and give greater ability for agency analysts to support management in effective
strategic planning and performance management.

Completion Date: Implementation of VLMS – estimated June 2011


14: That the agencies define the goals of the automated Volunteer Lifecycle Management
System implementation and develop and implement a process to measure progress against
these goals.

Concur: The RFP for the Volunteer Life Cycle Management System was written as a set of
performance-based requirements, or goals, required of the new system. The vendor (Kenexa)
must meet the specified goals as defined by contract, which were based on nearly 2 years of
planning. These goals will be tracked via a requirements traceability matrix. The Project Plan is
now being developed by the vendor and will be approved by the agency. It will define a process
of measuring progress in meeting the RFP goals.

Documentation to be submitted: Requirements traceability matrix
A PPE NDI X F



Target Completion Date: December 2010


15. That the agencies define the goals of the automated Volunteer Electronic Health System
implementation and develop and implement a process to measure progress against these
goals.

Concur: The goals of the Volunteer Electronic Health System are to:

    •   Provide a mechanism by which the majority of Peace Corps medical applicants will be
        screened and medically cleared without additional requests for information or requiring
        nursing or physician intervention, thus reducing the medical clearance process to days or
        hours.
    •   At the time of medical clearance, provide to VRS a listing of counties that can accept the
        applicant without accommodation, with accommodation, and that cannot accept the
        applicant.
    •   Standardize and simplify the medical screening requirements for the majority of
        applicants, allowing tracking and trending of subsequent Volunteer experience outcomes.
    •   Eliminate most use of follow up paper questionnaires, significantly reducing the
        opportunity for confidentiality violations The overseas electronic medical record will be
        used to record Volunteer health care, perform quality assurance and improvement, and
        allow correlation with other metrics associated with the Volunteer experience.

The current timeline for implementation is dependent upon the selection of the VEHS vendor.
Currently, it is expected that the RFP will be circulated in December 2010, with proposals to the
RFP and the selection process to begin in late January 2011. The anticipated award selection for
the vendor is June 2011 and with a meeting for the project deliverables in July 2011. Based on
these dates, the estimated implementation of the VEHS will be for Q2 2012.

Completion Date: Estimated implementation of VEHS – Q2 2012

16. That the Office of Volunteer Support develop and implement strategies to reduce
medical clearance processing time and track progress against established targets.

Concur: In addition to the technical solutions outlined above in the response to recommendation
15, VS will propose to the Agency a number of other changes to expedite the medical clearance
process, including:
Adopting a clearance system based upon self reported medical information and self reported
current functional status, eliminating the need for much of the currently required specialty
physician consultations, imaging studies (CT, MRI), and in depth laboratory testing.
    • Adopting a dental clearance system requiring only certification by the examining dentist
        that the Volunteer has no untreated conditions that would impact 27 months of service.
        This will specifically eliminate the need for prophylactic 3rd molar (wisdom tooth)
        extractions, and extensive dental treatments other than treating all cavities.
    • Potentially eliminating screening physical exams for most applicants.
A PPE NDI X F


    •   Simplifying required laboratory testing and issuing requisitions for blood testing and
        mammography from OMS, obviating many physician consultations.
    •   Delaying expensive required examinations, such as cervical cytology and dental exams,
        until the screening process has otherwise cleared the applicant and an invitation to a
        specific staging cohort has been extended.


As these identified areas are components of medical screening, the anticipated implementation of
will correspond with the implementation of the VLMS.

Completion Date: Upon implementation of the VLMS – estimated June 2011


17. That the Office of General Counsel, the Office of Volunteer Support, and the American
Diversity Program review the amended American Rehabilitation Act’s applicability to
Volunteers and Volunteer applicants and update agency policies and practices, if required.
If needed, the Office of Volunteer Recruitment and Selection should update its processes
accordingly.

 Concur: The amendments to the American Rehabilitation Act have been reviewed by the OGC
and the Manager of the American Diversity Program. It has been determined that the
amendments do not have an impact on the agency’s screening process and the amendments are
consistent with what the agency has already been doing, although the screening process may be
adjusted during the implementation of the DOVE system. VRS, ADP and OGC will monitor the
changes to ensure ongoing compliance.

Completion Date: November 2010


18. That the agency systematically collect and analyze data to determine whether Volunteer
medical accommodations pose an undue hardship on the operation of the Peace Corps or
any component thereof.

Concur: The Agency cannot currently track PCMO or other staff or medical resources to
specific Volunteers, thus it is not possible to determine the costs of an accommodated Volunteer
to Peace Corps. The intent is to have the electronic medical records collect this information.
Upon implementation of the system, we will need some time to collect data to ascertain the
impact of accommodations on Peace Corps. Additionally, VS plans to request the development
of Volunteer performance metrics including a quantitative post service performance score and a
measurement of “time away from site” that will also be used to analyze the true costs of medical
accommodations.

Completion Date: Estimated implementation of VEHS – Q2 2012 – data collection for review
will be 12-24 months after this date
A PPE NDI X F


19. That the Office of Medical Services review the reimbursement schedule and
reimbursement policies to reduce applicants’ out-of-pocket costs for medical screening.

Concur: The plan for reducing applicant out of pocket costs is to streamline the number of tests
and examinations required for medical clearance which is the goal of the medical screening
process. Neither VS nor OMS is responsible for setting medical screening reimbursements. We
believe that the only viable way that VS can impact applicant costs is to limit the number of tests
and examinations required for medical clearance. Thus the intention is that upon implementation
of the medical screening portion, we will be able to have an impact on reducing the medical costs
for applicants. The medical screening portion is to correspond with the implementation of the
VLMS.

Completion Date: Upon implementation of the VLMS – estimated June 2011


20: That the agency establish customer service standards and measures for the Volunteer
Delivery System and evaluate performance.

Concur: Customer service standards will be a part of the scope of work of the Volunteer
Delivery System Steering Committee.

Completion Date: December 2010


21: That the agency review the relevance and need for P.DOT and determine if it will
continue to make P.DOT available to applicants. If so, update the content and
communicate changes to affected parties.

Concur: Traditionally P.DOT was a program used for staging events. VRS and OPATS will
determine the necessity and relevance of P.DOT and make a decision on whether to retire or
keep it based on functionality.

Completion Date: December 2010


22: That the Office of Medical Services complete the development and implementation of a
standardized training program for the Pre-screening Unit.

Concur: OMS has developed and implemented a standardized training program for the pre
service unit

Documents submitted: Pre-Service New Employee Orientation Competency Checklist

Completion Date: November 2010
A PPE NDI X F


23: That the Office of Volunteer Recruitment and Selection update its procedure manuals.
Concur: The Guide to Recruitment and the Guide to Placement had major revisions in March
2009, and will be revised again on a broader scale with the implementation of VLMS in June
2011. Until then, minor changes are being made as needed to these two documents. VRS is
hiring a Change Management Specialist to provide guidance and advice as changes are
incorporated into VRS’ policies and business practices. Once the VLMS system has been
implemented and is operational, we will have a clearer understanding of the procedures required
for updating.

Completion Date: December 2011
A PPE NDI X G



                                    OIG COMMENTS

Management concurred with all 23 recommendations. Based on the documentation provided, we
closed one recommendation: number 22. In its response, management described actions it is
taking or intends to take to address the issues that prompted each of our recommendations. We
wish to note that in closing recommendations, we are not certifying that the agency has taken
these actions or that we have reviewed their effect. Certifying compliance and verifying
effectiveness are management’s responsibilities. However, when we feel it is warranted, we may
conduct a follow-up review to confirm that action has been taken and to evaluate the impact.
Twenty-two recommendations, numbers 1, 2, 3, 4, 5, 6, 7, 8, 9, 10, 11, 12, 13, 14, 15, 16, 17, 18,
19, 20, 21, and 23, remain open pending confirmation from the chief compliance officer that the
documentation reflected in OIG Analysis is received.


1: That the Agency develop and implement a method to measure Volunteer quality.

        Concur: VRS has met with the Agency Assessment Team and has concluded that
        Volunteer quality is currently defined by the criteria VRS uses to recruit and place
        Volunteers. VRS will collaborate with OGO, OSIRP, the Agency Assessment team
        (specifically the Assessment Field Resource Group) to determine if additional criteria
        should be considered when measuring Volunteer quality. If it is determined that criteria,
        in addition to what is currently defined, can be implemented to measure Volunteer
        Quality then VRS will use this input to develop and implement a method. If it is
        determined that the criteria already defined is sufficient, then a memo stating that will be
        shared.

        Document to be submitted: Summary of meeting between VRS and Agency
        Assessment Team

        Completion Date: April 2011

        OIG Analysis: Please submit a summary of the meeting between VRS and the Agency
        Assessment Team; the criteria used to measure Volunteer quality; the methods used to
        measure these criteria; and a description of the implementation strategy used to
        incorporate these criteria and measurements into management and operations.


2: That the Office of Volunteer Recruitment and Selection develop and implement a
standardized applicant suitability follow-up process. If needed, develop related tools to
assist staff in implementation.

        Concur: In June of 2010, the Director of Recruitment issued a memo to the nine
        Regional Recruitment Offices identifying and implementing standard practices
A PPE NDI X G


        throughout the application process. The Director of Recruitment continues to work with
        recruitment staff to evaluate and standardize practices across all nine Regional Offices in
        conjunction with the implementation of the VLMS system.

        Document submitted: Memo from Shari Hubert, Director of Recruiting to Regional
        Recruiting Offices dated June 2010

        Completion Date: November 2010

        OIG Analysis: The OIG recognizes in the agency’s response that action has been
        initiated to address this recommendation. The intent of this recommendation was to
        increase standardization when conducting follow-up on typical suitability issues that need
        further inquiry, such as an applicant’s strong placement preferences, romantic
        involvement, legal issues, inflexible personal choices, or other situations that require
        follow-up to determine suitability. Staff reported that they lacked guidance for suitability
        follow-up, which led to variation in the questions that were asked and the additional
        documentation that was obtained. In the agency’s response, documentation was received
        for Recruitment but not for the Placement Office. Please submit documentation that
        describes the standard suitability follow-up process used by the Placement Office.


3: That the Office of Volunteer Recruitment and Selection develop and implement a
standardized method for staff to document the results of their applicant assessment.

        Concur: The Office of Recruitment currently documents an applicant’s suitability on the
        interview guide and in the final assessment form. The Office of Recruitment is revising
        the interview guide to include standardized suitability rating scores. This method will
        allow Recruiters to more objectively assess applicants. The Placement Office has
        developed a standardized suitability follow-up questionnaire used by Placement Officers
        when collecting additional information from applicants. Four assessment criteria are
        discussed in this document: Motivation and Commitment, Productive Competence,
        Social Sensitivity/Cultural Awareness and Emotional Maturity. Additionally, each
        section contains a list of questions used to assist in determining the level each of these
        qualities in the applicant.

        Document submitted: Placement Standardized Suitability Follow-up Questionnaire

        Documents to be submitted: Revised interview guide to include standardized suitability
        rating


        Completion Date: Implementation of VLMS – estimated June 2011


        OIG Analysis: The intent of this recommendation was to provide a standardized way for
        VRS staff members to document the entirety of their work, including follow-up inquiries
        that led to the final placement decision. Please submit the revised interview guide used
A PPE NDI X G


        by the Office of Recruitment that includes a standardized suitability rating along with a
        description of the Placement Office’s standardized process for documenting their work,
        including any related tools.


4: That the Office of Volunteer Recruitment and Selection develop a method to objectively
measure the quality of each Volunteer applicant.

        Concur: The VLMS will incorporate a system by which feedback from posts on
        Volunteer quality is documented.

        Completion Date: Implementation of VLMS – estimated June 2011

        OIG Analysis: Please submit documentation that describes how the quality of each
        Volunteer applicant will be objectively measured.


5: That the Office of Volunteer Recruitment and Selection clarify and standardize the
quality control requirements of recruitment staff and ensure standardized implementation
of these responsibilities. Adjust position descriptions to reflect staff members’ quality
control activities, as necessary.

        Concur: The Office of Recruitment has implemented standardized quality control
        methods to ensure the accuracy and completeness of files. Recruitment Offices use a
        standard document checklist that goes into each file and recruitment staff screens each
        file for completeness before it is forwarded to the Placement Office. VRS has revised the
        system through which the Placement Office provides feedback to the Regional Offices on
        applicant files, and has implemented a standardized file tracking system as a part of the
        PCAPP’s Program. The late file report also helps ensure that files are received into HQ
        from RROs within 30-45 days of nomination. VRS is reviewing position descriptions as
        part of the recommendations issued in the Agency Assessment. VRS also provides
        specific quality control metrics and performance metrics within the performance review
        standards and elements provided to Recruiters and Placement Officers and Placement
        Assistants (POs/PAs).

        Documents submitted: Office of Recruitment Standardized Quality Control Methods;
        Placement Standardized File Tracking System; VRS Quality Control and Performance
        Metrics within the Performance Review Standards for Regional Recruiters and Placement
        Officers and Assistants

        Documents to be submitted: Revised Position Descriptions will be submitted upon
        approval and completion of the assessment recommendations

        Completion Date: September 2011
A PPE NDI X G


        OIG Analysis: Please submit revised position descriptions that reflect Recruitment
        staff’s quality control activities and documentation that describes how these quality
        control activities are being implemented operationally.


6: That the Office of Volunteer Recruitment and Selection develop and implement quality
control procedures for the Office of Placement and adjust position descriptions to reflect
staff members’ quality control activities, as necessary.

        Concur: During the re-organization of the Placement Office from a country desk to skills
        desk model, VRS reviewed the position descriptions for placement staff. Managerial
        functions were amended to encompass the three new and distinct roles; Review,
        Assessment, and Operations. The managers that assumed these positions have created
        quality control and customer service standards for their units including; the development
        of new initial and ongoing training for their staff, consolidated function among units, and
        the monitoring and review of quantitative indicators including but not limited to; files
        screened, invitations made, legal dispositions, and others. The staff has responded well to
        these initiatives and is performing at a high level.

        Documents submitted: Position Descriptions for Placement Staff

        Completion Date: November 2010

        OIG Analysis: The OIG recognizes in the agency’s response that action has been taken to
        address this recommendation. In order to close the recommendation, please submit
        documentation that describes the quality control procedures used by the Placement
        Office.


7: That the Office of Volunteer Recruitment and Selection and the Office of Global
Operations develop and implement a method to gather feedback from Post staff on
Volunteer performance and suitability for their assignments.

        Concur: The design and development of tools to assess the suitability of individuals to
        become Peace Corps Volunteers and to assess their performance as Peace Corps
        Volunteers is currently the responsibility of VRS, OPATS, Regions, OSIRP, and the
        Office of Global Operations. The VLMS (Volunteer Lifecycle Management System) will
        be able to capture and maintain requested data based upon criteria generated by the key
        stakeholders. Once in the VLMS, the data can be tracked and reported. Implementation
        can begin with the deployment and development of the VLMS.

        Completion Date: Implementation of VLMS – estimated June 2011

        OIG Analysis: Please submit a copy of the feedback method and implementation
        strategy used to gather feedback from post staff on Volunteer performance and suitability
        for their assignment.
A PPE NDI X G




8: That the agency develop a method to accurately track Posts’ trainee requests and
measure its ability to meet those requests.

        Concur: Posts’ requests for trainees will automatically be tracked in the VLMS upon its
        deployment. Post requests are at the first level of information gathering and
        documentation in the new workflow system. Based on specific identified agency needs,
        reports for tracking and reporting will be developed in the VLMS. Requests generated
        within the VLMS can be tracked at multiple levels, from individuals to the level of the
        entire agency. All requests and all dispositions will be stamped with names, dates and
        times for accurate tracking and reporting.

        Completion Date: Implementation of VLMS – estimated June 2011

        OIG Analysis: Please submit documentation that describes how posts’ trainee requests
        will be tracked and how the agency will measure its success in fulfilling the requests.


9: That the Agency include the Office of Volunteer Recruitment and Selection in the new
country entry decision-making process so it can assess availability of needed trainees and
incorporate new trainee requests into its recruitment plans. Update MS 340 “Opening a
Post” and new country assessment guidance accordingly.

        Concur: New country assessment teams generally have representation by Safety and
        Security, Office of Medical Services, Regional Representation and Programming Staff.
        Prior to performing a new country assessment, research is conducted to understand the
        economic, social and political factors of the country. As a part of the initial research
        process, the new country assessment team will consult with VRS to determine
        availability of skill levels in the technical areas the team is expecting to assess. The
        debrief meeting will also include representation from VRS so that they can incorporate
        new trainee requests in their recruitment plans. The New Country Assessment Guide,
        which is referenced in MS 340, will be updated in the Programming Section to ensure
        that Programming staff are taking into account the needs of VRS when conducting a new
        country assessment. MS 340 is not deemed the appropriate place to include this
        information.

        Completion Date: January 2011

        OIG Analysis: In addition to providing the Office of Volunteer Recruitment and
        Selection with adequate time to prepare for new country entries, the intent of this
        recommendation was to give the Office of Volunteer Recruitment and Selection an
        increased role in the new country entry decision-making process to improve the agency’s
        ability to deliver trainees with the skills and backgrounds requested by host countries.
        Please submit a copy of the updated New Country Assessment Guide and documentation
        that describes how the process had changed to give the Office of Volunteer Recruitment
A PPE NDI X G


        and Selection a greater role in helping the agency decide how the availability of needed
        trainees might impact the agency’s ability to open a post.


10: That the agency develop a process to accommodate expedited trainee requests to
support new country entries in a way that upholds Volunteer quality for all posts.


        Concur: Currently the Placement Office prioritizes new country entries (NCE) when the
        Region makes the request. Once a NCE is announced, the Office of Recruitment is asked
        to prioritize qualified applicants for the program. Additionally, applicants who are
        already in the system are screened for possible placement in the NCE. Once candidates
        have been identified, VRS requests OMS to prioritize the medical review. Upon medical
        clearance, NCE candidates are prioritized for invitation. The prioritization is dependent
        upon the timing of the new request. VRS is evaluating and formalizing a process for this.


        Completion Date: January 2011

        OIG Analysis: The agency’s response appears to reflect the current process. Please
        submit documentation that describes a revised New Country Entry process that
        accommodates expedited trainee requests and upholds Volunteer quality for all posts.


11: That the Volunteer Delivery System Steering Committee, or other senior level
committee, develop and implement a process to oversee continuous quality improvement of
the Volunteer Delivery System.

        Concur: Continuous quality improvement is an ongoing process with VDS. With having
        identified software to implement, the quality improvements have been identified and we
        are looking to have them be a part of the implementation of the VLMS. Additionally, the
        Volunteer Delivery System Steering Committee will be reformatted to focus on the
        continuous quality improvement of the Volunteer Delivery System and will develop a
        process and meet quarterly to monitor VDS quality. A smaller sub-committee will be
        convened to focus on the implementation of DOVE.

        Document to be submitted: Recommendation memo to Deputy Director on
        reorganization of the VDS Steering Committee

        Completion Date: December 2010

        OIG Analysis: Please submit a copy of the recommendation memo to Deputy Director
        on reorganization of the VDS Steering Committee.
A PPE NDI X G


12: That the applicant matching process and related Assignment Area system be reviewed
and modified to meet the requirements of Post programs and Volunteer Delivery System
activities.

        Concur: The RFP for the VLMS required that the Vendor (Kenexa) provide the
        functionality for matching defined program needs with applicant profiles through the use
        of multi-matching criteria. A process for matching applicants with Post requests is
        fundamental to the design of the VLMS. This issue has been at the core of VDS redesign
        discussions for at least 24 months, as outlined in the VDS Redesign Roadmap of January,
        2009. The VLMS has the functional capability to accommodate evolving Agency needs
        and priorities, including relevant recommendations from the Agency Assessment.

        Documentation submitted: VDS Redesign Roadmap

        Completion Date: November 2010

        OIG Analysis: Please submit documentation that describes either a) a new applicant
        matching process that has been developed in place of the Assignment Area system or b)
        how the current Assignment Area system has been changed to better meet the
        requirements of post programs and Volunteer Delivery System activities.


13: That the agency develop and produce management analytics reports for the Volunteer
Delivery System for use in strategic planning, marketing, recruiting and outreach efforts.

        Concur: The agency currently operates in a technology environment with limited
        analytics capability. Current reports often do not meet operations needs, and offer limited
        business intelligence. In the Volunteer Lifecycle Management System (VLMS) contract
        award, specific requirements are included to provide the agency with enhanced reporting
        capabilities. The vendor will be providing industry-standard reports on marketing,
        recruiting and outreach efforts, as well as customized reports to fit the unique needs of
        the Peace Corps. In addition, ad hoc report creation capability will be provided to further
        augment agency needs. These technology improvements will allow the agency to develop
        proper analytics to support the Volunteer Delivery System and give greater ability for
        agency analysts to support management in effective strategic planning and performance
        management.

        Completion Date: Implementation of VLMS – estimated June 2011

        OIG Analysis: Please submit copies of management analytics reports and a description
        of their intended use in strategic planning, marketing, recruiting, and outreach activities.
A PPE NDI X G


14: That the agencies define the goals of the automated Volunteer Lifecycle Management
System implementation and develop and implement a process to measure progress against
these goals.


        Concur: The RFP for the Volunteer Life Cycle Management System was written as a set
        of performance-based requirements, or goals, required of the new system. The vendor
        (Kenexa) must meet the specified goals as defined by contract, which were based on
        nearly 2 years of planning. These goals will be tracked via a requirements traceability
        matrix. The Project Plan is now being developed by the vendor and will be approved by
        the agency. It will define a process of measuring progress in meeting the RFP goals.

        Documentation to be submitted: Requirements traceability matrix

        Target Completion Date: December 2010

        OIG Analysis: Please submit a copy of the requirements traceability matrix.


15. That the agencies define the goals of the automated Volunteer Electronic Health System
implementation and develop and implement a process to measure progress against these
goals.

        Concur: The goals of the Volunteer Electronic Health System are to:

            •   Provide a mechanism by which the majority of Peace Corps medical applicants
                will be screened and medically cleared without additional requests for information
                or requiring nursing or physician intervention, thus reducing the medical
                clearance process to days or hours.
            •   At the time of medical clearance, provide to VRS a listing of counties that can
                accept the applicant without accommodation, with accommodation, and that
                cannot accept the applicant.
            •   Standardize and simplify the medical screening requirements for the majority of
                applicants, allowing tracking and trending of subsequent Volunteer experience
                outcomes.
            •   Eliminate most use of follow up paper questionnaires, significantly reducing the
                opportunity for confidentiality violations
            •   The overseas electronic medical record will be used to record Volunteer health
                care, perform quality assurance and improvement, and allow correlation with
                other metrics associated with the Volunteer experience

        The current timeline for implementation is dependent upon the selection of the VEHS
        vendor. Currently, it is expected that the RFP will be circulated in December 2010, with
        proposals to the RFP and the selection process to begin in late January 2011. The
        anticipated award selection for the vendor is June 2011 and with a meeting for the project
A PPE NDI X G


        deliverables in July 2011. Based on these dates, the estimated implementation of the
        VEHS will be for Q2 2012.

        Completion Date: Estimated implementation of VEHS – Q2 2012

        OIG Analysis: Please submit documentation that describes how progress towards the
        goals of the automated Volunteer Electronic Health System will be measured.


16. That the Office of Volunteer Support develop and implement strategies to reduce
medical clearance processing time and track progress against established targets.

        Concur: In addition to the technical solutions outlined above in the response to
        recommendation 15, VS will propose to the Agency a number of other changes to
        expedite the medical clearance process, including:
            • Adopting a clearance system based upon self reported medical information and
               self reported current functional status, eliminating the need for much of the
               currently required specialty physician consultations, imaging studies (CT, MRI),
               and in depth laboratory testing.
            • Adopting a dental clearance system requiring only certification by the examining
               dentist that the Volunteer has no untreated conditions that would impact 27
               months of service. This will specifically eliminate the need for prophylactic 3rd
               molar (wisdom tooth) extractions, and extensive dental treatments other than
               treating all cavities.
            • Potentially eliminating screening physical exams for most applicants.
            • Simplifying required laboratory testing and issuing requisitions for blood testing
               and mammography from OMS, obviating many physician consultations.
            • Delaying expensive required examinations, such as cervical cytology and dental
               exams, until the screening process has otherwise cleared the applicant and an
               invitation to a specific staging cohort has been extended.
            • As these identified areas are components of medical screening, the anticipated
               implementation of will correspond with the implementation of the VLMS.

        Completion Date: Upon implementation of the VLMS – estimated June 2011

        OIG Analysis: Please submit documentation that describes how strategies to reduce
        medical clearance processing time have been implemented as well as a description of
        how the agency will measure progress against established targets.


17. That the Office of General Counsel, the Office of Volunteer Support, and the American
Diversity Program review the amended American Rehabilitation Act’s applicability to
Volunteers and Volunteer applicants and update agency policies and practices, if required.
If needed, the Office of Volunteer Recruitment and Selection should update its processes
accordingly.
A PPE NDI X G


        Concur: The amendments to the American Rehabilitation Act have been reviewed by the
        OGC and the Manager of the American Diversity Program. It has been determined that
        the amendments do not have an impact on the agency’s screening process and the
        amendments are consistent with what the agency has already been doing, although the
        screening process may be adjusted during the implementation of the DOVE system. VRS,
        ADP and OGC will monitor the changes to ensure ongoing compliance.

        Completion Date: November 2010

        OIG Analysis: Please submit documentation that defines the agency’s position on the
        American Rehabilitation Act’s applicability to Volunteers and Volunteer applicants that
        will guide the work of Volunteer Support/Office of Medical Services. Please also submit
        documentation that describes how the applicant medical screening process was adjusted
        during the implementation of the DOVE system, if applicable.


18. That the agency systematically collect and analyze data to determine whether Volunteer
medical accommodations pose an undue hardship on the operation of the Peace Corps or
any component thereof.

        Concur: The Agency cannot currently track PCMO or other staff or medical resources to
        specific Volunteers, thus it is not possible to determine the costs of an accommodated
        Volunteer to Peace Corps. The intent is to have the electronic medical records collect this
        information. Upon implementation of the system, we will need some time to collect data
        to ascertain the impact of accommodations on Peace Corps. Additionally, VS plans to
        request the development of Volunteer performance metrics including a quantitative post
        service performance score and a measurement of “time away from site” that will also be
        used to analyze the true costs of medical accommodations.

        Completion Date: Estimated implementation of VEHS – Q2 2012 – data collection for
        review will be 12-24 months after this date

        OIG Analysis: Please submit documentation that demonstrates that this recommendation
        has been addressed.


19. That the Office of Medical Services review the reimbursement schedule and
reimbursement policies to reduce applicants’ out-of-pocket costs for medical screening.


        Concur: The plan for reducing applicant out of pocket costs is to streamline the number
        of tests and examinations required for medical clearance which is the goal of the medical
        screening process. Neither VS nor OMS is responsible for setting medical screening
        reimbursements. We believe that the only viable way that VS can impact applicant costs
        is to limit the number of tests and examinations required for medical clearance. Thus the
A PPE NDI X G


        intention is that upon implementation of the medical screening portion, we will be able to
        have an impact on reducing the medical costs for applicants.



        The medical screening portion is to correspond with the implementation of the VLMS.

        Completion Date: Upon implementation of the VLMS – estimated June 2011

        OIG Analysis: Please submit documentation that demonstrates that this recommendation
        has been addressed.


20: That the agency establish customer service standards and measures for the Volunteer
Delivery System and evaluate performance.

        Concur: Customer service standards will be a part of the scope of work of the Volunteer
        Delivery System Steering Committee.

        Completion Date: December 2010

        OIG Analysis: Please submit a copy of the customer service standards; a description of
        how those standards will be measured; and a description of how the measurement results
        will be reviewed and evaluated by management.


21: That the agency review the relevance and need for P.DOT and determine if it will
continue to make P.DOT available to applicants. If so, update the content and
communicate changes to affected parties.

        Concur: Traditionally P.DOT was a program used for staging events. VRS and OPATS
        will determine the necessity and relevance of P.DOT and make a decision on whether to
        retire or keep it based on functionality.

        Completion Date: December 2010

        OIG Analysis: Please submit documentation that demonstrates that this recommendation
        has been addressed.


23: That the Office of Volunteer Recruitment and Selection update its procedure manuals.

        Concur: The Guide to Recruitment and the Guide to Placement had major revisions in
        March 2009, and will be revised again on a broader scale with the implementation of
        VLMS in June 2011. Until then, minor changes are being made as needed to these two
        documents. VRS is hiring a Change Management Specialist to provide guidance and
        advice as changes are incorporated into VRS’ policies and business practices. Once the
A PPE NDI X G


        VLMS system has been implemented and is operational, we will have a clearer
        understanding of the procedures required for updating.

        Completion Date: December 2011

        OIG Analysis: Please submit a revised Guide to Recruitment and Guide to Placement
        along with a summary of the major changes that were made.
A PPE NDI X H



   PROGRAM EVALUATION COMPLETION AND OIG CONTACT

OIG CONTACT
Following issuance of the final report, a stakeholder satisfaction survey will be distributed. If
you wish to comment on the quality or usefulness of this report to help us improve our products,
please email Jim O’Keefe, Assistant Inspector General for Evaluations, at
jokeefe@peacecorps.gov or call 202.692.2904.

STAFF ACKNOWLEDGEMENTS
This program evaluation was conducted under the direction of Jim O’Keefe, Assistant Inspector
General for Evaluations, and by Senior Evaluator Susan Gasper, Senior Evaluator Heather
Robinson, and Program Analyst Danel Trisi. Additional contributions were made by Senior
Evaluator Reuben Marshall and Executive Assistant Lisa Chesnel.
REPORT FRAUD, WASTE, ABUSE, AND
        MISMANAGEMENT


Fraud, waste, abuse, and mismanagement in government affect
everyone from Peace Corps Volunteers to agency employees to the
general public. We actively solicit allegations of inefficient and
wasteful practices, fraud, abuse, and mismanagement related to
Peace Corps operations domestically or abroad. You can report
allegations to us in several ways, and you may remain anonymous.




Mail:          Peace Corps
               Office of Inspector General
               P.O. Box 57129
               Washington, DC 20037-7129


Phone:         24-Hour Toll-Free:                  800.233.5874
               Washington Metro Area:              202.692.2915


Fax:           202.692.2901



Email:         oig@peacecorps.gov
